<html>
<title> - THE LONDON ATTACKS: TRAINING TO RESPOND IN A MASS TRANSIT ENVIRONMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                          THE LONDON ATTACKS:
                        TRAINING TO RESPOND IN A
                        MASS TRANSIT ENVIRONMENT

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                         PREPAREDNESS, SCIENCE,
                             AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2005

                               __________

                           Serial No. 109-35

                               __________

       Printed for the use of the Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________








                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-022                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001
















                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                   Peter T. King, New York, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Dave G. Reichert, Washington         Columbia
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Charlie Dent, Pennsylvania           Islands
Christopher Cox, California (Ex      Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman Subcommittee on Emergency 
  Preparedness, Science, and Technology..........................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Science and Technology..............     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................    67
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    28
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    23
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    30
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    62
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    25
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    29
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    22

                               WITNESSES
                                Panel I

Mr. Timothy Beres, Director, Preparedness Programs Division, 
  Office for Domestic Preparedness, Office of State and Local 
  Government Coordination and Preparedness:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Robert Jamison, Deputy Administrator, Federal Transit 
  Administration:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14

                                Panel II

Ms. Polly Hanson, Chief of Metro Police, Washington Metro Area 
  Transit Authority:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Mr. Christopher Kozub, Associate Director, National Transit 
  Institute:
  Oral Statement.................................................    47
  Prepared Statement.............................................    50
Mr. Paul Lennon, Director of Intelligence and Emergency, 
  Preparedness Management, Los Angeles County Metropolitan 
  Transit Authority:
  Oral Statement.................................................    44
  Prepared Statement.............................................    46
Chief William A. Morange, Deputy Executive Director/Director of 
  Security, State of New York:
  Oral Statement.................................................    38
  Prepared Statement.............................................    41
















                          THE LONDON ATTACKS:
                        TRAINING TO RESPOND IN A
                       MASS TRANSIT ENVIRONMENT

                              ----------                              


                         Tuesday, July 26, 2005

                          House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                   Science, and Technology,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:04 a.m., in 
Room 210, Cannon House Office Building, Hon. Peter King 
[chairman of the subcommittee] presiding.
    Present: Representatives King, Simmons, Rogers, Pearce, 
Reichert, McCaul, Dent, Pascrell, Thompson, Dicks, Harman, 
Norton, and Etheridge.
    Mr. King. [Presiding.] Good morning. The Committee on 
Homeland Security, Subcommittee on Emergency Preparedness, 
Science and Technology will come to order.
    We thank our witnesses who came to be with us here today.
    The attacks in London the last several weeks have been a 
vivid wakeup call to all Americans and to all freedom-loving 
people around the world about the threat we face from 
international terrorism, specifically the threat we face to our 
mass transit systems.
    Throughout the world, mass transit systems have long been a 
target of terrorists attacks, but, again, in many ways, it took 
the recent attacks on London to remind us of such brutal 
reality.
    Algerian extremists set off bombs in subways in Paris in 
1995 and 1996. Palestinian terrorists have carried out suicide 
bombings on Israel's buses. Al-Qa'ida terrorists killed 191 
people and wounded hundreds more by detonating 10 bombs on 
Madrid's commuter trains in 2004, Chechnyan terrorists killed 
40 people by bombing the Moscow subway in 2004. And the first 
terrorist use of a chemical weapon by a Japanese terror group 
occurred in 1995 when they released sarin gas in the Tokyo 
subway. And, again, the events of the last several weeks make 
it clear that the threat continues.
    Mass transit is public and used by millions of people 
daily. I know in my city of New York we have 3 to 4 million 
people a day on the New York City subway system, and there are 
almost 500 subway stations, and that does not even include the 
many suburban trains and routes coming into New York City.
    Because of the size and openness and the highly networked 
character of mass transit, there are no obvious checkpoints 
like those at airports to inspect passengers and parcels. 
Passengers are strangers, promising attackers anonymity and 
easy escape. And attacks on mass transit, the circulatory 
systems of urban areas, can cause widespread fear to really 
disrupt economic activity and kill or injure large numbers of 
people.
    Addressing transit security is complicated by the nature 
and scope of mass transit. More than 6,000 agencies provide 
mass transit services, such as bus, subway, ferry and light 
rail--more than 26 million Americans on a daily basis. And to 
remain competitive, transit agencies must offer convenient, 
inexpensive and quality service.
    The deployment of metal detectors, X-ray machines, 
explosive detection devices, enhanced searches of passengers 
and baggage, which of course are accepted now at airports, 
cannot be transferred easily to subway and/or bus stops. Delays 
would be enormous and the costs would be extremely large and 
mass transit could in fact grind to a halt.
    But that does not mean that we should not be doing more to 
increase security. It is difficult and it is vulnerable, but it 
does not mean we should stand back and do nothing more.
    To the contrary, mass transit systems can develop many 
effective countermeasures to make attacks more difficult, 
increase the likelihood of detection, minimize casualties and 
disruption and reduce panic.
    Many measures involve only modest expense. Improving 
liaison with state and local first responders, conducting 
vulnerability and security assessments, establishing emergency 
management plans, instituting preventive controls, holding 
tabletop exercises and full-scale drills, and putting in place 
procedures to handling bomb threats and left or suspicious 
objects are not particularly costly undertakings.
    Just this weekend, in fact, I met a retired New York City 
police officer who mentioned the possibility--I am going to ask 
this of the MTA witnesses today--of allowing retired police 
officers to ride free on mass transit. Certainly, in New York 
City, there are thousands and thousands of retired police 
officers in their 40s and 50s, all of whom are still armed and 
well trained. To have them on mass transit every day would, in 
effect, be at a cost of maybe $150 a month. You would be 
getting the service of a fully trained police officer.
    These are things that I think should be looked into. A lot 
of this, certainly the others I mentioned, have been done 
already before the London attacks.
    But also, it is important to realize that there are calls 
for new and costly programs, and some of them may well be 
necessary. But what I do not want to do is to repeat over the 
next several months, the next year in response to the London 
attacks, are many of the mistakes we made after 9/11 where a 
lot of good money was thrown at programs which turned out not 
to work.
    And also it is important to realize that federal assistance 
for mass transit has been considerable since September 11, 
2001, and this does not include the substantial sums that state 
and local governments and transit agencies have not made 
available for transit-related security purposes over the past 
several years.
    We need to ensure that the hundreds of millions and 
potentially billions of dollars that remain in the pipeline for 
transit and other homeland security needs are used most 
effectively. We need to quicken our pace implementing transit 
security enhancements, but we must be careful not to rush the 
process to the extent that we will repeat the kind of wasteful 
spending that we saw in the first responder programs after 9/
11.
    And in that context, we have to ensure that these funds are 
used to achieve clear, measurable and risk-based standards of 
preparedness benchmarks, not just feel-good items that may 
sound good but not necessarily increase safety. So we have to 
have more technology, we have to have more training, and we 
have to ensure that whatever we spend our money on has a 
reasonably good chance of being effective and getting the job 
done.
    Over the past several years, beyond funding, both the 
Department of Homeland Security and the Department of 
Transportation have provided invaluable technical assistance to 
transit agencies in conducting vulnerability assessments and 
drafting emergency response plans and have offered specialized 
training and exercises for mass transit personnel.
    The purpose of our hearing today will be precisely on those 
activities as they relate to training to respond to terrorist 
attacks in a mass transit environment, which present unique 
challenges that we must be ready to meet.
    We have to ensure that no stone is left unturned. At the 
same time, we do not want to be, again, throwing good money 
after bad. We have to find out what works and what does not, 
where more research should be done, where there should be more 
technological advances made, and that really is what we look 
forward to hearing from our witnesses today.
    So we are fortunate to have some of our top national 
experts here. I thank you for being here. I look forward to 
your testimony. I look forward to the questioning from both 
sides of the aisle.
    And with that, I recognize the ranking member of the 
subcommittee, the gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman, for giving the 
committee a chance to explore emergency response training for 
transit employees and emergency responders nationwide.
    Many on this committee, on both sides of the aisle, have 
spoken loudly and repeatedly over the last few years for 
greater prioritization to be assigned to transit security. And 
the recent heartbreaking events in London have certainly 
brought this issue to the forefront in our own minds.
    Our hearts go out to the victims and their families. 
England has been a stalwart ally in the global war on 
terrorism. They will find no better friend than the United 
States as it continues to recover from these tragic attacks.
    At home these attacks provide a grim reminder of the terror 
that can easily be carried out on American rail systems. For 
anybody who has ever taken the train, this comes as no 
surprise.
    The United States rail sector must cooperate closely with 
the Department of Homeland Security to identify vulnerabilities 
in our U.S. rail system and to apply countermeasures. 
Importantly, our nation's transit employees and emergency 
responders must have the training they need, they personnel 
they require and the funding they depend upon to maintain at 
least a baseline level of readiness.
    My fear is at this time that the federal government is 
failing to provide appropriate assistance in those three 
regards. According to a transit security survey by the American 
Public Transportation Association, necessary rail and transit 
security measures nationwide are at approximately $6 billion.
    This includes investment needed for such vital items as 
cameras. Need I say the significance in London of those 
cameras. Communications systems, need I remind us where we were 
on 9/11 on interoperability. And also the operational costs of 
training and additional personnel.
    Yet over the last 3 years, the federal government has spent 
$256 million to improve rail and transit security. Amazingly, 
the Senate has just voted to cut rail and transit grants by 
one-third. Figure that out. This is an amazing breach of 
responsibility and intelligence, in my mind.
    During this same timeframe, however, we spent $12 billion 
for aviation security. So that is $10 per passenger on 
airlines; one penny per passenger on the number of folks that 
use the ferry, the bus, the train, the light rail, as the 
chairman pointed out just a few moments ago. I think that this 
is a misguided approach.
    New Jersey transit, for example, in my state, is enormously 
serious about maintaining its security throughout its systems 
and has taken the necessary steps to address vulnerabilities. 
Since 9/11, New Jersey transit has expanded its uniform police 
force by more than 70 percent, provided awareness and safety 
training to frontline employees, issued passenger and employee 
safety advisories, began serving as first responders at transit 
facilities in light of the new demands on local police units 
and is now collaborating with the New Jersey State Police to 
improve patrolling onboard those trains, in stations and around 
those facilities.
    However, with only 209 police officers, 6 explosive-
detecting canine teams to protect and secure more than 3,000 
buses, 600 trains, serving $750,000 weekday passengers, New 
Jersey transit neither has the resources nor the budget to 
address these additional security concerns.
    And I might say, Mr. Chairman, it is the same in all the 
transit systems that I have reviewed in this country. New 
Jersey transit is not alone. I am sure our witnesses today from 
New York, LA and the Washington metro authorities can elaborate 
further on that point.
    I look forward to hearing from each of our witnesses today 
to learn the level of training that should be taking place and 
to see what degree transit workers are involved and the 
training with first responders. Training and personnel remain 
two of the biggest transit security needs, and I suspect that 
as we move forward on this topic, it will become more and more 
clear that there is simply not enough dedicated funding for 
mass transit security.
    Thank you, Mr. Chairman, for bringing us together today.
    Mr. King. Thank you, Mr. Pascrell.
    The witnesses in our first panel today are Mr. Robert 
Jamison, Deputy Administrator of the Federal Transit 
Administration, and Mr. Tim Beres, the Director of Preparedness 
Programs Division, Office for Domestic Preparedness, Office of 
State and Local Government Coordination and Preparedness in the 
Department of Homeland Security.
    And we will lead off with Mr. Beres.

                   STATEMENT OF TIMOTHY BERES

    Mr. Beres. Thank you, Chairman King, Ranking Member 
Pascrell and members of the committee. My name is Tim Beres, 
and I serve as director of Preparedness Programs Division 
within the Office of State and Local Government Coordination 
and Preparedness, the Office for Domestic Preparedness.
    Mr. King. Can I interrupt for 1 second? If you can try to 
keep your statements to 5 minutes, we will certainly make your 
full statement part of the record. Thank you.
    Mr. Beres. Absolutely.
    ODP's mission is to provide assistance and support to our 
state and local emergency prevention and response partners. We 
achieve this objective through financial assistance, training, 
exercise and technical assistance programs. A number of these 
programs directly support prevention and preparedness 
activities related to our nation's transit systems.
    To be sure, our role is part of a larger federal effort to 
secure our nation's various transportation systems, including 
aviation security, maritime security and surface transportation 
security.
    I am pleased to be joined by Robert Jamison from the 
Federal Transit Administration. We will discuss his agency's 
important role in securing our nation's transit systems.
    Since the tragic events of September 11, 2001, the 
Department has awarded approximately $8.6 billion in assistance 
through the State Homeland Security Grant Program and the Urban 
Areas Security Initiative, of which funding can be applied to 
the purchase of equipment for the prevention, detection and 
response to attacks on transit systems. These funds can also be 
used to support exercises that test state and local emergency 
prevention response to terrorist events, as well as training 
designed to develop proficiency in preventing and respond to 
terrorist acts.
    ODP has administrative authority over a number of DHS 
transit security programs. We have designed these programs 
working in conjunction with our DHS and other federal partners, 
like FDA, to focus programmatic decisions and funding 
allocation decisions based on a more robust risk-based 
methodology.
    To this end, we recently announced the award of more than 
$134 million under the fiscal year 2005 Transit Security Grant 
Program. This year's program also places a strong emphasis on 
prevention and detection relative to improvised explosive 
devices.
    Transit systems selected for funding under the fiscal year 
2005 Transit Security Grant Program must conduct a risk 
assessment and use this data to create a security and emergency 
preparedness plan that specifically identifies how the transit 
agency intends to address any shortfall in improvised explosive 
device or other prevention detection or response capabilities 
identified in the assessment.
    In addition, the transit agency is eligible for the 2005 
grants and must also participate in a Regional Transit Security 
Working Group. The purpose of the group is to develop a 
regional transit security strategy, which is intended to 
integrate individual agency needs into a regional perspective 
in order to holistically address identified transportation 
security vulnerabilities.
    In addition to providing financial assistance, ODP also 
provides extensive technical assistance to ensure that state 
and locals can more effectively develop their security programs 
and expend federal homeland security resources in an effective 
manner.
    As part of this overall effort in this area, ODP has 
developed the Mass Transit Technical Assistance Program to 
provide mass transit agencies with a risk management instrument 
to make resource allocation decisions. Our technical assistance 
can also assist states, urban areas and eligible transit 
systems to organize and form their Regional Transit Security 
Working Groups and develop and manage their regional transit 
security strategy.
    From March 2004 through November 2005, ODP will support 11 
exercises specifically involving mass transit and 
transportation systems. Of these, ODP provided direct support 
in either the planning or the execution for eight of the 
exercises. The remaining three exercises were conducted with 
the Department of Homeland Security funds.
    These exercises were conducted in a number of locations 
across the country, including the National Capital Region and 
New York City. And since 2002, ODP has directly supported 413 
preparedness exercises across the country. And our latest data 
indicated that states are using their fiscal year 2004 State 
Homeland Security Grant Program and Urban Area Security 
Initiative funds to support 1,198 exercise-related projects 
from planning of an exercise to overtime costs associated with 
the actual conduct of an exercise.
    In New York City, ODP provided direct support to Operation 
Transit SAFE, a full-scale exercise in May of 2004 that 
simulated terrorist scenarios involving the detonation of two 
explosive devices, each placed in a small backpack on the 
northbound and southbound Metropolitan Transportation Authority 
subway trains at the Bowling Green station in Lower Manhattan.
    Among the preeminent needs of the emergency prevention and 
response community is training. Through a number of different 
course levels as well as delivery methods, ODP offers a wide 
array of courses for a broad spectrum of public safety 
disciplines. To meet these needs, ODP's Training Division 
offers 50 planning, response and incidence management courses 
specific to the disciplines that would respond to a transit/
rail incident as part of a larger WMD terrorism curriculum.
    These courses build the foundation for all types of 
responses. An example of this is the prevention of and response 
to suicide bombing incidents.
    In addition, ODP, in partnership with the Federal Law 
Enforcement Training Center, is developing a suite of 
intelligence training courses for state and local responders.
    The State and Local Government Coordination and 
Preparedness Citizen Corps Program is also engaging citizens in 
the transit safety and security of their community. In 
Washington D.C., the Metro Citizens Corps is one example of how 
this community effort can work.
    The transit police assigned to Washington D.C.'s subway 
system launched the Metro Citizen Corps on December 1, 2004. 
Metro transit police officers, metro employees and a group of 
area residents have already participated in specialized 
training with their local jurisdictions, participate in day-
long interactive coordination train-the-trainer sessions.
    In closing, ODP has and will continue to provide 
significant resources and support to secure the nation's 
transit systems.
    Thank you, and I would be happy to answer any questions you 
have.
    [The statement of Mr. Beres follows:]

                    Prepared Statement of Tim Beres

    Chairman King, Ranking Member Pascrell, and Members of the 
Committee, my name is Tim Beres, and I serve as Director of the 
Preparedness Programs Division within the Office of State and Local 
Government Coordination and Preparedness' Office for Domestic 
Preparedness (ODP). The Preparedness Programs Division includes a 
Transportation Infrastructure Security Division, which administers a 
number of programs specifically designed to enhance transit and 
passenger rail security. I am pleased to appear before you today to 
discuss our efforts to secure our Nation's transit and passenger rail 
systems.
    ODP has provided significant support to our Nation's emergency 
prevention and response community since its establishment in 1998. As a 
component of the Office of State and Local Government Coordination and 
Preparedness, ODP's mission is to provide assistance and support to our 
State and local emergency prevention and response partners. We achieve 
this objective through financial assistance programs, including the 
State Homeland Security Grant Program and the Urban Areas Security 
Initiative (UASI), as well as the Law Enforcement Terrorism Prevention 
Program. Our role is much broader, though, than providing financial 
assistance. We also administer training, exercise and technical 
assistance programs. A number of these programs directly support 
prevention and preparedness activities related to rail and mass transit 
systems. To be sure, our role is part of a larger Federal effort to 
secure our Nation's various transportation systems, including aviation 
security, maritime security and surface transportation security.

Financial Assistance Programs
    Since the tragic events of September 11, 2001, the Department of 
Homeland Security has awarded more than $250 million in grants 
specifically for transit security. In FY 2003, under the UASI Transit 
System Security Grant Program, ODP awarded $67.8 million to nineteen 
transit systems for security enhancements. Funding allocation decisions 
were based solely on ridership, which at the time was the only reliable 
risk factor. In FY 2004, ODP provided an additional $49.7 million to 
twenty-five major transit systems for security enhancements under the 
UASI. For these funds, the Department added the additional criteria of 
track mileage to ridership to make final funding allocations.
    In recognition of the need to secure our Nation's critical 
infrastructure sector, including mass transit and the transportation 
systems, the Administration proposed consolidating multiple stove-piped 
programs (Port Security, Rail/Transit Security, Intercity Bus, Trucking 
Industry Security and Buffer Zone Protection) into a Targeted 
Infrastructure Protection Program (TIPP). The request included $600 
million for TIPP, which would allow the Department the flexibility to 
allocate preparedness grants to the highest risk infrastructure sites, 
including to our high risk transit operations, based upon the most 
recent threat information, rather than attempting to create numerous 
specific programs with a level of funding that may prove to be too 
little or too much given the risk environment.
    ODP recently announced an additional amount of more than $134 
million under the FY 2005 Transit Security Grant Program (TSGP). The 
overarching goal of this program is to create a sustainable, risk-based 
effort for the protection of regional transit systems and the commuting 
public from terrorism, especially explosives and non-conventional 
threats that would cause major loss of life and severe disruption. This 
year's program also places a strong emphasis on prevention and 
detection relative to improvised explosive devices (IEDs), as well as 
chemical, biological, radiological, and nuclear agents. Of the $134 
million, $107,900,000 was awarded for security enhancement for rail 
transit systems; $22,357,076 for security enhancements for intra-city 
bus systems; and $3,887,161 for ferry systems security.
    Under the FY 2005 TSGP program, the Department distributed rail 
security funds using a more robust risk-based formula. The formula for 
rail transit funding was based on several factors, including ridership, 
track mileage, the number of stations, and threat, as well as service 
to a defined UASI jurisdiction. Likewise, the formula for intra-city 
bus funding was based on ridership and location within a UASI 
jurisdiction. The funds dedicated to ferry system security were 
distributed through a competitive process, but eligible applicants were 
determined based on ridership and a location within a UASI 
jurisdiction.
    Throughout the program development and application process, ODP has 
worked closely with a number of governmental and non-governmental 
agencies to ensure an appropriate level of subject matter expertise and 
to solicit feedback from our Federal, State and industry partners. We 
have worked collaboratively with several DHS agencies, including 
officials from the Transportation Security Administration (TSA), the 
Information Analysis and Infrastructure Protection Directorate (IAIP), 
the United States Coast Guard (USCG), and the Science and Technology 
Directorate (S&T), as well as the Department of Transportation's 
Federal Transit Administration (FTA) and Federal Railroad 
Administration (FRA). We have also worked closely with State 
transportation officials from New Jersey, New York, and Washington, DC, 
and with industry groups, including the Association of American 
Railroads and the American Public Transportation Association.
    Further, a major focus of the FY 2005 TSGP is to establish and 
sustain a risk-based, regional planning process to ensure that 
transportation security priorities are addressed in a systematic, risk-
based manner. To this end, a key enhancement to the FY 2005 TSGP is the 
requirement that transit agencies receiving funds through the program 
work with the states, urban areas and other transit systems in their 
defined region to develop a Regional Transit Security Strategy (RTSS). 
As the owners and/or operators of infrastructure that is vital to the 
well being of the states and urban areas they serve, it is imperative 
that transit system security efforts be incorporated into, and 
reflective of, regional preparedness planning efforts.
    Transit systems selected for funding under the FY 2005 TSGP must 
conduct a risk assessment and use this data to create a Security and 
Emergency Preparedness Plan (SEPP) that specifically identifies how the 
transit agency intends to address any shortfall in IED or other 
prevention, detection, and response capabilities identified in the 
needs assessment. In addition, the transit agencies eligible for the FY 
2005 TSGP must also participate in a Regional Transit Security Working 
Group (RTSWG) for the purpose of developing the RTSS. The RTSS--or 
Regional Transit Security Strategy--is intended to integrate individual 
agency needs into a regional perspective in order to holistically 
address identified transportation security vulnerabilities. The 
Department requires that all working groups include representation from 
the applicable state(s) and urban area(s) served by the transit systems 
receiving funds, and it is strongly recommended that other transit 
agencies not eligible to receive funds through the FY 2005 TSGP, but 
whose systems intersect with those of the grant recipients, also 
participate in the RTSWG process. In addition, for transit systems 
whose operations intersect with those of Amtrak in the Northeast 
Corridor and in Chicago, a representative of Amtrak must be included in 
the RTSWG, and close coordination with Amtrak on the expenditure of 
funds for security enhancements at shared facilities must occur.
    It is the Department's intent that that RTSS serve as the 
integration point between the individual, risk-based SEPPs, and the 
overall security goals and objectives of the region. Therefore, the 
RTSS must demonstrate a clear linkage to the applicable state and urban 
area homeland security strategies developed or currently being revised. 
The SEPPs and the RTSS will serve as the basis on which funding is 
allocated to address regional transit security priorities, and the 
vehicle through which transit agencies may justify and access other 
funding and resources available on a region-wide basis through the UASI 
program. The RTSS should identify the overall vision of regional 
transit preparedness with specific goals and objectives essential to 
achieving the vision. The RTSS will serve as an overarching strategy 
for the region with mode-specific goals and objectives as they relate 
to Planning, Organization, Equipment, Training, and Exercises (POETE). 
Given the focus of this year's program, each RTSS must also 
specifically address current and required detection and response 
capabilities relative to IEDs, as well as chemical, biological, 
radiological, and nuclear prevention, detection and response 
capabilities, and the actions necessary to address any gaps. In a 
similar fashion, our FY 2005 Homeland Security Grant Program 
application kit and guidance requires each jurisdiction to conduct one 
FSE utilizing an IED. We are strongly encouraging States to incorporate 
a mass transit component into the exercise scenario.
    ODP will work with an interagency Strategy Review Board (SRB) 
consisting of representatives from DHS Directorates and Offices (such 
as IAIP, TSA, and USCG), and representatives of other federal agencies 
(such as the FTA) to evaluate the strategies and make recommendations 
for approval or enhancement. Further, as the expenditure of funds is 
tied to approval of the strategies, ODP has set a goal of completing 
all review steps (including routing and approval notification) within 
10 business days of receipt of the RTSS.
    While the TSGP provides support and assistance to State, local, and 
in some cases, private companies, the FY 2005 Intercity Passenger Rail 
Security Grant Program provides funds and technical assistance to 
Amtrak for a risk assessment and security enhancements. Under this 
program, ODP awarded $7.1 million to Amtrak. Of these funds, $6,373,730 
is for grants for security enhancements along Amtrak's Northeast 
Corridor and at its hub in Chicago, Illinois. These represent the most 
highly travel passenger routes in the Nation. An additional $726,270 
will be used to provide technical assistance in the development of a 
risk-based assessment of Amtrak's Northeast Corridor and Chicago area 
operations. This assessment will help Amtrak identify and prioritize 
needs for security countermeasures, emergency response capabilities, 
and management of security enhancements.
    In order to promote the regionally-based approach to preparedness 
and security, the expenditure of these funds by Amtrak is contingent 
upon having an updated Security and Emergency Preparedness Plan, which 
is a comprehensive plan that provides written policies and procedures 
to guide activities for homeland security and emergency preparedness. 
Amtrak must also coordinate its funding allocation decisions with the 
RTSSs being developed in the National Capital Region, Philadelphia, New 
York, Boston, and Chicago. To facilitate this coordination, Amtrak is 
required to provide a representative to the Regional Transit Security 
Working Groups responsible for the development of the RTSS in these 
urban areas.
    Further, it should be noted that since September 11, 2001, the 
Department has awarded more than $8.3 billion in assistance through the 
State Homeland Security Grant Program and the UASI, of which funding 
can be applied to the purchase of equipment for the prevention and 
detection of attacks on transit systems. These funds can also be used 
to support exercises that test State and local emergency prevention and 
response to terrorist events, as well as training designed to develop 
proficiency in preventing and responding to terrorist acts. Data from 
the FY 2004 Biannual Strategy Implementation Report, which captures how 
States are spending their homeland security funds, indicate that 23 
States directed more than $34 million toward transit-related security 
projects. Further, initial FY 2005 data from 39 States indicate that 
they plan to devote more than $5.7 million for transit security-related 
projects.
    Also, through the FY 2005 Buffer Zone Protection Program, the 
Department has made more than $90 million available for the protection 
of critical infrastructure and key resources. Under this program, we 
know that States are eligible to receive more than $5 million to assist 
in enhancing security at 102 sites in the transportation sector.
    The 103 sites in the transportation sector can be further broken 
down as follows:
        <bullet> Bridges: 47 sites
        <bullet> Busing: 2 sites
        <bullet> Ferries: 4 sites
        <bullet> Railways: 18 sites
        <bullet> Tunnels: 11 sites
        <bullet> Mass Transit (subways): 21 sites
    The BZPP funds will greatly enhance preparedness and protection 
efforts at our Nation's most critical infrastructure and key resources, 
including those within the Nation's transportation system.

Technical Assistance
    In addition to providing financial assistance, ODP also provides 
extensive technical assistance (TA) to ensure that States and 
localities can more effectively develop their security programs and 
expend Federal homeland security resources in an effective manner. 
Technical assistance is a process of providing help to resolve a 
problem and/or create innovative approaches to prevention, response, 
and recovery. TA seeks to provide state and local jurisdictions with 
assistance that can accomplish one or more of the following objectives: 
identify a problem; address an identified problem; address items in a 
corrective action plan (CAP) from a completed exercise; and, fill 
``gaps'' between equipment, training and exercise programs.
    TA deliveries may take a variety of forms that can be combined or 
modified to meet the specific needs of each requesting state/local 
jurisdiction. As part of its overall effort in this area, ODP has 
developed a Mass Transit TA Program to specifically address the unique 
security challenges facing transit systems.
    To support the FY 2005 TSGP, ODP is providing TA designed to assist 
states, urban areas and eligible transit systems organize and form 
their RTSWGs, develop their RTSS and effectively manage the 
implementation of the strategy through the FY 2005 TSGP and other 
available resources. This assistance includes workshops and a 
facilitated strategy development session.
    In addition, for those transit systems that need assistance in 
conducting the required system-wide risk assessment necessary for 
development of the SEPP, ODP's Mass Transit TA program also offers an 
ODP Technical Assistance Team to support the agency with a risk-based 
prioritization assessment. The overall risk assessment process includes 
implementing the ODP Special Needs Jurisdiction Tool Kit, which allows 
mass transit agencies to identify and prioritize security 
countermeasures and emergency response capability needs based on 
terrorist threats and relative risk as determined by both national and 
local authorities. This process enables agencies to:
        1. Prioritize security countermeasures and emergency response 
        capability needs based on terrorist threats and risk;
        2. Develop a road map for future mass transit agency funding 
        allocations for terrorist attack risk reduction; and,
        3. Prepare for future Federal funding requirements.
    To date, ODP has completed comprehensive risk assessment deliveries 
for seven (7) major transit systems, including the Port Authority of 
New York and New Jersey, New Jersey Transit, the Washington 
Metropolitan Area Transit Authority, and the Massachusetts Bay 
Transportation Authority. ODP is currently providing this assistance to 
an additional twelve (12) agencies, including the Chicago Transit 
Authority (CTA).
    In addition, lessons learned from its application nationwide are 
being used to identify other areas of needs and drive the development 
of additional assistance programs through a spiral development process. 
For example, ODP is currently piloting a new TA program with New Jersey 
Transit, a major transit system in the Northeast. Once fielded, this 
program will assist transit agencies with development of continuity of 
operations plans, a major area of need identified in the risk 
assessments conducted to date.

Exercises:
    From March 2004 through November 2005, ODP will have supported 11 
exercises involving mass transit systems. Of these, ODP provided direct 
support in either the planning or the execution for eight of the 
exercises. The remaining three exercises were conducted with the 
State's Department of Homeland Security funds. These exercises have 
been conducted in a number of locations across the country, including 
the NCR and New York City.
    All exercises were conducted using the Homeland Security Exercise 
and Evaluation Program (HSEEP). ODP has implemented the HSEEP to 
provide a means to assess terrorism prevention, response, and recovery 
capabilities at the Federal, State, and local levels. HSEEP is a 
threat- and performance-based exercise program that provides common 
doctrine and policy for the planning, conduct, and evaluation of 
exercises. In an attempt to standardize the language and concepts that 
have been adopted and utilized by various agencies and organizations in 
the exercise planning process, the HSEEP doctrine was designed to 
ensure consistent use of standard terminology and processes throughout 
all exercises.
    For example, in September 2004, a Command Post Exercise (CPX) was 
conducted, which simulated multiple terrorist bombing attacks, a 
bubonic plague outbreak, extreme heat, and rolling blackouts. The CPX 
was held at more than thirty command centers and involved hundreds of 
command personnel throughout the NCR. The exercise involved 700 players 
and 350 observers, including Federal, State, and local agencies. 
Participating Federal agencies included the FBI, the Federal Protective 
Service, the Pentagon Force Protection Agency, the U.S. Capitol Police, 
and the U.S. Supreme Court Police. The DC, Virginia, and Maryland 
Emergency Management Agencies were involved, as well as the DC 
Metropolitan Police Department. Additionally, surrounding counties from 
Virginia and Maryland were involved. In addition to these Federal, 
State and local agencies, Baltimore Gas & Electric, Dominion Virginia 
Power, and the Washington Metropolitan Area Transit Authority 
participated in this exercise. The participants' actions were guided by 
NCR CPX guidance procedures, participating agencies' plans, policies, 
and procedures, and ODP's HSEEP guidelines.
    In New York City, ODP provided direct support for the Operation 
Transit SAFE Full-Scale Exercise in May 2004. This simulated terrorist 
scenario involved the detonation of two explosive devices, each placed 
in a small backpack on northbound and southbound Metropolitan 
Transportation Authority (MTA) subway trains at the Bowling Green 
Station in lower Manhattan. Over 500 responders participated, including 
local EMS providers and medical centers. In addition to multiple New 
York City agencies, the FBI, the Greater New York Chapter of the 
American Red Cross, the Salvation Army, and Con Edison participated as 
well. The participants' actions were guided by the Operation SAFE 
Planning Team, emergency operations plans, the New York City Office of 
Emergency Management, and ODP's HSEEP guidance.
    ODP is currently working with FTA and TSA to examine ways to 
leverage exercise programs already developed and funded by these 
agencies, and to ensure coordination of our efforts.

Training:
    Among the preeminent needs of the emergency prevention and response 
community is training. Through a number of different course levels 
(awareness, operations, planning, and management) as well as delivery 
methods (classroom,web instruction, etc.), ODP offers a wide array of 
courses for a broad spectrum of public safety disciplines.
    To meet these needs, the Training Division offers fifty planning, 
response, and incident management courses specific to the disciplines 
that would respond to transit/rail incidents as part of a larger WMD/
terrorism curriculum. These courses build the foundation for all types 
of responses whether man-made or natural. Examples of these are: 
Incident Response to Terrorist Bombings (awareness level); Incident 
Response to Terrorist Bombings (operations level); and Prevention of 
and Response to Suicide Bombing Incidents. These courses are designed 
to prepare emergency responders to perform effectively and safely 
during bombing incidents at all locations of an incident scene. The 
courses include detailed instruction on IEDs, explosive materials, and 
explosive effects, and comprehensive training on critical response 
actions during pre- and post-detonation operations. Extensive field 
training, including explosives effects demonstrations, are included.
    In addition, these courses address actions that emergency 
responders can take to prevent and/or deter terrorist attacks involving 
energetic materials. All of these courses include train-the-trainer 
programs to assist in sustaining and multiplying the effectiveness of 
deliveries throughout the nation. These examples are offered to 
multiple disciplines [Law Enforcement (including Transit Police), 
Emergency Medical Services, Fire Service, HazMat, Public Works, and 
public Safety Communications]. In addition, ODP, in partnership with 
the Federal Law Enforcement Training Center (FLETC), is developing a 
suite of Intelligence training courses for state and local responders. 
This suite of courses will present information to include intelligence 
gathering, the intelligence process (including data mining), types of 
intelligence, channels of communication, intelligence networks, and 
security of information and documentation of intelligence information.
    In FY 2004, building upon its existing capacity and capability, ODP 
awarded more than $33 million under the Competitive Training Grant 
Program (CTGP). Fourteen training programs were selected through a 
competitive, peer-panel review process which identified innovative 
training programs to address six issue areas designated by ODP as areas 
for increased attention. These areas were identified based on a trend 
analysis of the State Homeland Security Strategies submitted to ODP 
earlier in FY 2004. This analysis sought to identify shared training 
gaps among the 56 U.S. States and Territories.
    One of these awards was for the Los Angeles County Metropolitan 
Transportation Authority (MTA). Under this award, MTA, in conjunction 
with the American Public Transportation Association (APTA), is 
developing a turn-key curriculum for private and non-sworn 
transportation security staff to prevent and respond to acts of 
terrorism involving Weapons of Mass Destruction. Examples of specific 
topic areas within the curriculum are: Principles of Security and 
Counter-Terrorism in Public Transportation; Physical Security in Public 
Transportation; Security Surveillance in Public Transportation; and 
Threat Analysis, Assessment, and Identification. The MTA project is an 
example of coordination, uniting county supervisors, elected officials, 
the LA Sheriff's Department, and union representation behind the common 
goal of enhanced terrorism prevention and preparedness specifically for 
mass transit security. Once completed, this curriculum will be 
distributed nationwide through APTA and ODP to all state and local 
public transportation agencies.
    In FY 2005, ODP issued a second Competitive Training Grant Program 
solicitation. Under the FY 2005 solicitation applicants again submitted 
proposals based on issue areas identified in State Homeland Security 
Strategies and more recently completed Initial Strategy Implementation 
Plans (ISIPs) provided by the States and territories. Of the six issue 
areas identified from the State Strategies and ISIPs, one focused on 
transit security: Training to enhance the transit systems' (rail, bus, 
ferry) capacity to prevent and/or manage the consequences of terrorist 
attacks.
    We are currently reviewing the findings and recommendations of the 
CTGP peer review panels held this month and plan to announce proposals 
selected for funding in the coming weeks. We will keep this Committee 
posted on these selections and provide additional information as it 
becomes available.

Citizen Corps:
    SLGCP's Citizen Corps program is engaging citizens in the transit 
safety and security of their community. The Washington, D.C. Metro 
Citizen Corps is one example of how this community effort can work. 
Transit police assigned to Washington D.C.'s subway system launched the 
Metro Citizen Corps on September 1, 2004. Metro Transit Police 
officers, Metro employees and a group of area residents who have 
already participated in specialized training within their local 
jurisdictions participate in day-long interactive coordination Train-
the-Trainer sessions. The citizen trainers are known as area Community 
Emergency Response Team (CERT) coordinators and are from the District 
of Columbia, Virginia and Maryland. CERT, a Citizen Corps program 
partner, educates people about disaster preparedness for hazards that 
may impact their area and trains them in basic disaster response 
skills. Using the training learned in the classroom and during 
exercises, CERT members can assist others in their neighborhood or 
workplace following an event when professional responders are not 
immediately available to help.
    The D.C. CERT program was the first regional partner to participate 
in the training. Through the program, Metro Transit Police train Metro 
Citizen Corps volunteers in a number of different areas, including rail 
safety, system evacuation routes, and tunnel walks. They also receive 
information on the location of emergency trip stations and how to 
access them in case of an emergency. Already more than 60 citizens, all 
regular commuters, have gone through the training.
    SLGCP's Citizen Corps program is also exploring a nationwide 
partnership with the Department of Transportation's Transit Watch 
program. Transit Watch is a nationwide safety and security awareness 
program designed to encourage the active participation of transit 
passengers and employees in working together to maintain a safe transit 
environment. It provides information and instructions to transit 
passengers and employees to ensure that they know what to do and whom 
to contact in the event of an emergency in a transit setting. The 
Transit Watch Toolkit containing a downloadable CD, fact sheet and 
other materials is available at no-charge on the Transit Watch website 
at http://transit-safety.volpe.dot.gov/Security/TransitWatch/
default.asp.

Conclusion:
    In closing, ODP has and will continue to provide significant 
resources and support to secure our Nation's passenger and transit 
systems. The system-wide plans under development will help identify and 
address key security needs to make our Nation's transit system safer 
and function effectively. The Department, working alongside our 
Federal, State, and non-governmental partners, will continue our 
tireless efforts to ensure the safety of the commuting public and the 
transit sector.
    Thank you for the opportunity to provide information on the 
important work that the Office for Domestic Preparedness is undertaking 
to secure our Nation's passenger and rail transit systems.

    Mr. King. Thank you, Mr. Beres.
    Mr. Jamison?

  STATEMENT OF ROBERT JAMISON, DEPUTY ADMINISTRATOR, FEDERAL 
      TRANSIT ADMINISTRATION, UNITED STATES DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Jamison. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to testify before you today on 
behalf of the Federal Transit Administration regarding the 
security of America's transit systems and, in particular, the 
critical role of training and emergency preparedness.
    We are all dismayed by the recent tragic and despicable 
acts of violence in London. Our hearts go out to the victims, 
their families and their countrymen who, stood shoulder to 
shoulder with America in the wake of September 11.
    July 7 was a grim reminder of how difficult it is to 
balance economic prosperity, our freedoms and our security.
    Mass transit systems are essential to the freedom of 
movement that American cherish and enjoy. Every workday, 
transit and commuter rail systems move more than 14 million 
passengers in the United States. To do that effectively, 
transit must be open and accessible.
    The very characteristics of public transit systems that 
make them convenient and reliable also make providing effective 
security an ongoing challenge. Therefore, even as we continue 
to improve the security of our Nation's transit systems, we 
must not lose sight of the need to improve our ability to 
respond to emergencies in order to save lives and minimize 
injuries.
    Immediately following September 11, FTA undertook an 
aggressive nationwide security program. With the assistance of 
national and international security experts, FTA identified and 
has focused on three important priorities: public awareness, 
employee training and emergency preparedness.
    Reports from both Madrid and London confirm that our focus 
is well-founded. Although opportunities to improve U.S. transit 
security still exist, we know that capital expenditures alone 
are not enough to assure security.
    Perimeter fencing, securing yards, tunnels and bridges, and 
even extensive use of security cameras did not and would not 
have prevented either the London or Madrid attacks. The fact 
is: good transit security is grounded in operations.
    Since September 11, the use and effectiveness of public 
awareness messages has significantly increased. Nevertheless, 
in most transit systems, there is still room for improvement. 
In addition to its important role of reporting suspicious 
activity and unattended bags, the public must be familiar with 
the operation of emergency exit doors, understand emergency 
evacuation procedures for each location on their route, and be 
prepared to facilitate a prompt and effective emergency 
response.
    FTA will be focusing its efforts in the future on improving 
the standard public awareness templates to help local transit 
agencies incorporate this important information. In addition, 
we are developing standard protocols for the content and 
frequency of security announcements for each Homeland Security 
threat level.
    The actions taken by transit employees in the critical 
moments immediately after an attack or an emergency can 
significantly reduce the severity of injuries and the number of 
deaths that result. Therefore, there is simply no substitute 
for transit employee training that builds the skills to 
prevent, detect and respond to security threats. These skills 
can be acquired through rigorous emergency planning, emergency 
drills and testing, and extensive training.
    Since September 11, over 77,000 transit employees from 
across the Nation have received FTA-funded security-related 
training. We will continue to focus on expanding the reach of 
important new training in the latest international 
counterterrorism techniques, operational protocols for chemical 
and biological agents, and terrorist activity recognition and 
reaction.
    While transit employee training is essential, there is no 
substitute for a good emergency response plan that has been 
tried and tested by the full array of emergency responders in 
the community. To assist in building those relationships and 
developing community-wide response plans, FTA, in conjunction 
with Office for Domestic Preparedness, has sponsored 18 
``connecting communities'' forums.
    These forums brought together transit, law enforcement, 
fire, medical, city and county officials for 3 days of regional 
planning and response exercises. In fact, I was pleased to 
participate with Congressman Reichert at our forum in Seattle 
when he served as the sheriff of King County, Washington.
    In addition, to date, 77 transit agencies have conducted 
full-scale emergency response drills funded by the Federal 
Transit Administration. FTA is currently updating its guidance 
on how to conduct emergency drills based upon the results of 
those drills. In addition, we plan to provide follow-up grants 
to conduct more full-scale drills.
    While we know that there is no substitute for practicing 
emergency response drills in an operating environment, we 
continue to look for ways to improve and practice skills more 
frequently at a lower cost than full-scale community drills. 
Therefore, FTA has piloted web-based emergency drills in 
Boston, Portland, Seattle, San Francisco, Rock Island, Illinois 
and Montgomery County, Maryland. This new approach will provide 
transit agencies with new tools for conducting tabletop drills 
more effectively, efficiently and affordably.
    Mr. Chairman, thanks in large measure to the efforts of the 
Nation's transit operators, transit is more secure and better 
prepared to respond to emergencies than it has ever been. FTA 
will continue to support transit agencies throughout the Nation 
by providing security-related training for transit employees, 
materials and guidance to educate transit passengers and 
improve the emergency response planning and procedures.
    I appreciate the opportunity to testify today, and I will 
be pleased to answer any questions and to go into more detail 
about our programs and policies. Thank you.
    [The statement of Mr. Jamison follows:]

                Prepared Statement of Robert D. Jamison

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify before you today on behalf of the Federal 
Transit Administration (FTA) regarding the security of America's 
transit systems and in particular the critical role of training and 
emergency preparedness.
    We are all dismayed by the tragic and despicable acts of violence 
in London on July 7 and July 21. Our hearts go out to the victims, 
their families, and their countrymen who stood shoulder-to-shoulder 
with America in the wake of September 11. July 7 was a grim reminder of 
how difficult it is to balance economic prosperity, freedoms, and 
security.
    Mass transit systems are essential to the freedom of movement that 
Americans cherish and enjoy. They permit large numbers of people to 
travel rapidly and efficiently between home, work, and other activities 
on a daily basis. To do that effectively, transit must be open and 
accessible.
    Every workday, transit and commuter rail systems move more than 14 
million passengers in the United States. In two weeks, transit and 
commuter rail systems carry more passengers than Amtrak carries in a 
year. In a single month, transit and commuter rail systems carry more 
passengers than U.S. airlines carry in a year. On a daily basis, 
700,000 to 800,000 people take the Long Island Rail Road, Amtrak, 
NJTransit, and the New York City subways into Penn Station, and a 
similar number use Metro North Railroad and the New York City subway 
through Grand Central Terminal.Sec. 
        <bullet> Prior to their destruction on September 11, the World 
        Trade Center and Fulton Street subway stations handled over 
        380,000 people each day--the equivalent of the entire 
        population of Miami, Sacramento, or Pittsburgh.
        <bullet> In 2004, 251 million trips were taken on Washington 
        DC's Metrorail.
    The very characteristics of public transit systems that make them 
convenient and reliable, also make providing effective security an 
ongoing challenge. Each year, more than 2.7 billion passengers use over 
1,000 stations to access America's heavy rail stations. Although 
passenger screening devices similar to those used in airports have been 
successfully tested in locations with limited access points and 
relatively few passengers, the widespread application of current 
passenger screening devices on mass transit--even on heavy rail--is 
unrealistic. During peak periods in New York's Penn Station, for 
example, more than 1,500 people per minute would have to be screened to 
maintain current levels of mobility and access. Therefore, even as we 
continue to improve the security of our Nation's transit systems, we 
must not lose sight of the need to improve our ability to respond to 
emergencies in order to save lives and minimize injuries.

FTA and America's Transit Systems
    America's public transportation is provided by more than 6,000 
locally governed and operated transit systems. These systems range from 
very small bus-only operations in small and rural communities, to very 
large multi-modal systems in urban areas that may combine bus, light 
rail, subway, and commuter rail operations.
    The Federal Transit Administration provides capital funding to 
States and urbanized areas to develop new and extensions to existing 
public transportation systems, and to improve and maintain existing 
systems. Smaller urbanized areas with less than 200,000 population, may 
use FTA formula funds for limited support of their operations. However, 
FTA does not have regulatory authority over the day-to-day operations 
of transit agencies.
    Historically, FTA has shaped the practices of transit agencies 
through its training programs, the development of best practices and 
guidance, and by conducting research that is critical to the industry. 
Since September 11, we have used all of these techniques to 
significantly influence the security practices of transit agencies.

Response to September 11
    Immediately following September 11, 2001, FTA undertook an 
aggressive nationwide security program and led the initial Federal 
effort on transit security. With the creation of the Transportation 
Security Administration in 2001 and the Department of Homeland Security 
in 2003, lead responsibility for the Federal Government's activities in 
the area of public transit security now rests by statute with DHS. DOT 
recognizes that DHS has primary responsibility for transportation 
security, and that DOT plays a supporting role, providing technical 
assistance and assisting DHS when possible with implementation of its 
security policies, as allowed by DOT statutory authority and available 
resources. While TSA is the lead federal agency for ensuring the 
security of all transportation modes, as part of its own authority, FTA 
conducts non-regulatory safety and security activities, including 
safety and security related training, research, and demonstration 
projects.
    With the assistance of national and international security experts, 
FTA identified and has focused on three important priorities: employee 
training, public awareness, and emergency preparedness, and we continue 
to work with our DHS partners in all of these areas.
    FTA's initial response included conducting threat and vulnerability 
assessments in 37 large transit systems, 30 of which carry almost 90 
percent of all transit riders. These assessments, conducted with the 
full cooperation and support of every transit agency involved and at no 
cost to the transit agencies, formed the basis of our security efforts. 
The assessments considered the entire transportation system and network 
in each area, not just the physical assets of one mode or site. Each 
assessment identified high risk and high consequence assets; evaluated 
security gaps; made recommendations to reduce security risks to 
acceptable levels; educated transit agencies on threat and 
vulnerability analysis; and reviewed agencies' emergency response 
plans, particularly their degree of coordination with emergency 
responders throughout the region.
    Based on these assessments, FTA sent technical assistance teams to 
46 transit agencies, and will begin four additional technical 
assistance visits in the next few months. These teams help transit 
agencies strengthen their security and emergency preparedness plans; 
implement immediate operational security improvements; and offer 
tailored assistance based on threat assessments. The results have also 
been utilized by the Department of Homeland Security (DHS) to assess 
the relative risks and requirements in the transit environment. 
Further, as part of a $3 million program involving 83 transit agencies, 
FTA funded emergency response drills conducted in conjunction with 
local fire, police, and other emergency responders.
    In 2002, to help guide transit agency priorities, FTA issued its 
Top 20 Security Action Item List to improve transit safety and security 
operations, particularly with regard to employee training, public 
awareness, and emergency preparedness. Since that time, the 
implementation of these action items by the 30 largest transit agencies 
has been one of four core accountabilities of every FTA senior 
executive, and I am pleased to report that FTA has achieved its goals 
in this area every year.
    In addition, to address concerns identified through its threat and 
vulnerability assessments, FTA developed and disseminated standard 
protocols for responding to chemical or biological incidents in rail 
tunnels and transit vehicle environments. More recently, FTA has 
developed Security Design Considerations for use by transit agencies as 
they design or redesign infrastructure, communications, access control 
systems, and other transit system components. Important considerations 
include designing stations for easy detection, so people cannot leave 
objects hidden out of sight; separating public and private spaces in 
facilities, so that access to controls and equipment can be restricted; 
and designing facilities for easy decontamination and recovery 
operations. FTA is incorporating security design as a component of the 
New Starts development and evaluation process.
    Since 9/11, FTA has also significantly improved its ability to 
communicate with transit agencies. We now utilize a voice system known 
as Dialogics to communicate security messages verbally to the general 
managers and security chiefs at the 30 largest transit agencies. This 
system, which requires an affirmative acknowledgement that the message 
has been received, has been utilized extensively by both DHS and FTA in 
recent weeks. In addition, we maintain and utilize the capability to 
communicate electronically with the general managers and security 
chiefs of the 100 largest transit agencies.
    We recognize that good intelligence must be America's first line of 
defense against terrorism, and FTA has worked diligently with our 
partners to improve intelligence sharing in the transit industry. FTA 
funded and worked with the American Public Transportation Association 
to create the Surface Transportation Information Sharing and Analysis 
Center (ST-ISAC), which is used by transit agencies throughout the 
country to obtain and share intelligence information that is specific 
to the industry. This system provides two-way communication between the 
intelligence community and the transit industry, as well as transit-
specific intelligence analysis. The ST-ISAC is located at the 
Transportation Security Operations Center, TSA's 24/7 communications 
center that provides real time data on potential threats throughout all 
modes of transportation. In addition, FTA worked with the Federal 
Bureau of Investigation (FBI) to enable transit agencies to participate 
on their local or regional FBI Joint Terrorism Task Force (JTTF), 
giving nearly all of the 30 largest transit agencies access to real-
time intelligence information regarding their community and the ability 
to contribute information they may have regarding threats to their own 
operations.

Response to London Attacks
    In response to the London terror attacks, transit agencies across 
the country implemented ``Orange Alert'' protective measures, even 
before the threat level was officially raised. This quick response was 
a direct result of the extensive work done in identifying best 
practices, developing security-related guidance, and working 
collaboratively to plan and test emergency response procedures.
    Among the specific protective measures implemented by the 30 
largest transit agencies immediately following the London attacks were:
        <bullet> Deployment of bomb-sniffing dogs to patrol transit 
        stations;
        <bullet> More frequent reminders to passengers about how to 
        identify and report suspicious activities and behaviors;
        <bullet> Deployment of transit police to the local police 
        department command center; and
        <bullet> Deployment of additional transit agency staff and law 
        enforcement personnel to increase patrols and visibility in 
        public areas.
    In addition, I am pleased to report that DHS and FTA worked 
cooperatively for the benefit and safety of transit riders across the 
Nation. FTA provided input to DHS in the development of a DHS/FBI Joint 
Advisory regarding recommended measures for mass transit and passenger 
rail systems. DHS and FTA also consulted on the alert timing, level, 
and actions; utilized shared communication systems to reach out 
immediately to our transit agency partners; and met jointly with 
transit agency leaders via teleconference.
    As you know, the prevention of attacks like those in London will be 
grounded in useful intelligence that is promptly shared with local 
officials. Unfortunately, little intelligence was available prior to 
those attacks.
    Although opportunities to improve U.S. transit system security 
still exist, we know that capital expenditures alone are not enough to 
assure security. Perimeter fencing, securing yards, tunnels, and 
bridges, facial recognition technology, and even extensive use of 
security cameras did not and would not have prevented either the London 
or Madrid attacks.
    The fact is, good transit security is grounded in operations. 
Reports from both Madrid and London confirm that our focus on public 
awareness, employee training, and emergency preparedness is well-
founded. In light of that knowledge, I would like to share some 
additional information about our efforts in these three areas, and our 
plans for the coming year.

Public Awareness
    Originally, many people were concerned that efforts to share 
security-related information with the riding public would generate fear 
and depress ridership. As a result, early efforts to increase public 
awareness, including FTA's Transit Watch campaign materials, were 
general in nature, telling passengers to be on the look-out for 
suspicious individuals or activities. Over time, however, experience 
and research have indicated that people feel more secure and are more 
capable of responding if they receive more specific security-related 
information.
    As a result, transit agencies now focus their public awareness 
efforts on the specific actions that passengers should take. For 
example, one widely used public education campaign, originally 
developed by the Washington Metropolitan Area Transit Authority, 
instructs passengers to ask, ``Is That Your Bag'' if they see an 
unattended bag or package. Another campaign, using the tag line ``See 
Something, Say Something,'' tells passengers how to contact transit 
officials if they see something that seems out-of-place. Public 
awareness campaigns have also begun to focus more specifically on 
emergency evacuation procedures.
    Since September 11, the use and effectiveness of public awareness 
messages has significantly increased. Washington Metro has been a 
leader in ensuring that detailed emergency evacuation information is 
more widely and openly disseminated to transit riders and the general 
public. Nevertheless, in most transit systems, there is still room for 
improvement to ensure that the public is familiar with the operation of 
emergency exit doors, understands the emergency evacuation procedures 
for each location on their particular route, and is prepared to 
facilitate a prompt and effective emergency response.
    FTA will be focusing efforts to improve standard public awareness 
templates to help local transit agencies incorporate this important 
information. In addition, FTA is developing standard protocols for the 
content and frequency of security announcements for each Homeland 
Security threat level. Further, security and emergency preparedness 
messages are being developed in a variety of languages in an effort to 
better communicate with the diverse community of transit riders.

Employee Training
    Transit employees are America's first line of defense and will be 
our first responders in the event of a terrorist attack or other 
emergency on a transit system. The actions taken in the critical 
moments immediately after an attack or an emergency can significantly 
reduce the severity of injuries and the number of deaths that result. 
Therefore, there is simply no substitute for security awareness and 
emergency response training for transit employees. We must rely on--and 
cultivate--human capabilities to prevent, detect, and respond to 
security threats.
    The 400,000-plus transit employees throughout America are the 
``eyes and ears'' of our most important security system. Transit 
employees travel the same routes, maintain the same facilities, and see 
the same people every day as they go about their duties. They are in 
the best position to identify unusual packages, suspicious substances, 
and people who are acting suspiciously. But they need to develop an 
understanding of what to look for and skills in how to respond. These 
skills can be acquired through rigorous emergency planning, regular 
emergency testing and drills, and extensive training.
    FTA has developed and delivered guidance and security courses 
through the National Transit Institute (NTI), the Transportation Safety 
Institute (TSI) and Johns Hopkins University (JHU). Since September 11, 
over 77,000 transit agency employees from across the Nation have 
received security-related training. Among the newest training courses 
now being offered are:

        <bullet> Terrorist Activity Recognition and Reaction. This 
        course incorporates the latest in international counter-
        terrorism techniques to provide training to frontline transit 
        employees. To date, over 4,200 transit employees from 28 of the 
        30 largest transit agencies have taken this training.
        <bullet> Strategic Counter-Terrorism for Transit Managers. This 
        course provides counter-terrorism management training to 
        transit managers and transit security officials. It offers an 
        effective approach to security planning and the tactical 
        deployment of law enforcement personnel. The course will be 
        delivered to the 30 largest transit agencies beginning in 
        August 2005.
        <bullet> Chemical/Biological Detection Protocols. This course 
        will provide agency-specific information for operations control 
        personnel and train operators on chemical and biological 
        incident management. The course is also slated for delivery to 
        the 30 largest transit agencies beginning in August 2005.
    Despite widespread success and the significant numbers of transit 
agency employees who have received training, we recognize that hurdles, 
such as overtime costs and shift coverage, can negatively affect the 
ability of transit agencies to take advantage of the free training 
opportunities that are available through FTA. Therefore, we are working 
with transit stakeholders to identify strategies that will permit as 
many frontline employees as possible to be trained.

Emergency Preparedness
    While transit employee training is important, there is no 
substitute for a good emergency response plan that has been tried and 
tested by the full array of emergency responders in a community. 
However, the threat and vulnerability assessments conducted after 
September 11 suggested that most transit agencies had not even 
established working relationships with other emergency responders.
    To assist in building these relationships and developing community-
wide response plans, FTA sponsored 18 Connecting Community Forums. 
These forums brought together transit, law enforcement, fire, medical, 
and city/county officials for three days of regional planning and 
response exercises FTA will work with DHS's Office of State and Local 
Government Coordination and Preparedness and Transportation Security 
Administration to hold ten additional Connecting Community Forums in 
the coming year that are customized to address weaknesses in those 
particular communities. Two of the forums will he held in conjunction 
with small and/or rural transit agencies.
    To date, 77 communities have conducted full-scale emergency 
response drills funded by FTA. One important condition of these grants 
was that the drills include the participation of local and regional 
police, fire and emergency response agencies. There is no doubt that 
the safety and security of our communities is significantly enhanced 
when public transportation systems are linked to police, fire, medical 
and other emergency response agencies. Community-wide planning, 
emergency response drills, and unified emergency command centers make 
this critical link effective. FTA is currently updating its guidance on 
how to conduct emergency drills based on the results of the drills held 
to date. In addition, we plan to provide additional grants to transit 
agencies to conduct full-scale drills.
    While we continue to believe that there is no substitute for 
practicing emergency response skills in an operating environment, we 
continue to look for ways to improve and practice skills more 
frequently and at a lower cost than full-scale community drills. 
Therefore, FTA has also piloted web-based emergency drills in Boston 
(MBTA), Portland (Tri-Met), Seattle (Sound Transit), San Francisco 
(BART), Rock Island, IL (Metrolink), and Montgomery County, MD (Ride 
On). This approach will provide transit agencies, particularly small 
and rural agencies, with a tool for conducting tabletop drills more 
effectively, efficiently, and affordably.

Conclusion
    Mr. Chairman, the Nation's transit operators have responded 
admirably to the new threat environment. Thanks to their efforts, 
transit is more secure and more prepared to respond to emergencies than 
it has ever been. FTA will continue to support transit agencies 
throughout the Nation by providing security-related training for 
transit employees, materials and guidance to educate transit 
passengers, and improved emergency response planning and procedures.
    I appreciate the opportunity to provide this important update on 
transit safety and security, and look forward to working with you to 
keep Americans safe and moving on public transportation.

    Mr. King. Thank you, Mr. Jamison.
    Thank you, Mr. Beres.
    I have a multipart question, which I think the parts are 
all related.
    Both Homeland Security and the Department of Transportation 
do provide federal funding for mass transit, including anti-
terror activities. I would like to know, one, what is the level 
of coordination between the two departments? Is there a 
memorandum of understanding between the two departments? If you 
can tell, how much money has been awarded since 9/11 which 
would be related to antiterrorism as far as mass transit?
    Also, if you can tell, the extent of money that would be 
available to state and local governments to be used on mass 
transit which is not specifically allocated to mass transit. 
What I mean is money, for instance, just in the grant system, 
$6 billion to $8 billion that is available out there. Is there 
anything to prevent local municipalities from using that money 
for mass transit, and to what extent do they request assistance 
for mass transit, and to what extent are those requests denied?
    Also, I ask on a somewhat related matter, since you have 
oversight of mass transit security, in view of what happened in 
London with the shoot-to-kill policy, are there any guidelines 
coming from the federal government toward local and state 
police entities regarding what to do with terrorist suicide 
bombers on mass transit systems?
    I will address the questions to the two of you.
    Mr. Beres. Thank you, Chairman King.
    We have awarded approximately $8.6 billion since September 
11, all of which could be used for transit security. As you 
know, this funding goes out to the states and/or designated 
Urban Area Security Initiative jurisdictions and may have the 
ability to allocate those funds for prevention, protection, 
response or recovery activities that they see fit within their 
jurisdictions based on an overall state or Urban Area Security 
Initiative homeland security strategy that they have. So that 
funding has been available to establish security and protective 
measures within those jurisdictions.
    Also, since September 11 and prior to the Madrid bombings, 
we started allocating some funding directly to the transit 
systems, which has become approximately $256 million, 
specifically for transit systems since 9/11.
    And we have worked very closely with FTA on the 
coordination of these programs, the redesign of the transit 
programs this year to take a more regional and collaborative 
approach, use the activities that they have done in the past as 
far as the assessments that they have requested, metro transit 
agencies to do to make sure that we are not duplicating the 
efforts that have already been done and to make sure that those 
can feed in directly to our programs and to make sure that the 
types of things that are allowable to be used are similar and 
work with what FTA and the policies that they are looking at 
across their programs and are consistent with those.
    Mr. King. Mr. Jamison?
    Mr. Jamison. Yes. Let me try to address most of your 
questions in the order that you presented them.
    First on coordination, I think it is pretty evident by our 
testimony today that we have been working very closely with the 
Office for Domestic Preparedness in coordinating our training 
and emergency preparedness forums as well as a lot of our 
security-related training.
    We do have an overarching MOU with DHS, and we are very 
close to signing a transit annex. However, I do not think we 
need a piece of paper to work in close collaboration since 
London. We have specifically been in close collaboration with 
the Department of Homeland Security in the response to London 
and the raising and lowering of the threat level, and we 
continue to work closely with them.
    I do think it is a valid point, though, that we need to 
continue to make sure that we have one plan and that we 
coordinate our resources to have the maximum input in the 
transit environment, and we are working very hard to do that.
    From your second point about funding availability, 
separately from the funding that DHS has provided, the Federal 
Transit Administration has provided approximately $25 million 
worth of technical assistance drill grants and other guidance 
and assistance materials to transit agencies.
    From an eligibility standpoint, with our formula in urban 
capital programs, which have a 1 percent safety and security 
requirement, that equates to about $36 million a year that is 
required to be spend on safety and security. And the programs 
are eligible for capital expenditures, and these programs are 
over $4 billion. If security capital is prioritized by the 
transit agency, they can use those funds for that purpose.
    And, finally, on the tragic incident in London, the 
shooting incident, I do not have enough information to comment 
on that specifically, but I think one thing is very apparent: 
That is underscores the importance of good training from our 
security forces and from our first-line responders.
    We have put a lot of focus into a terrorist recognition and 
response course that we are providing to the transit industry 
that helps transit agency employees identify suspicious 
behavior, know how to confront suspicious behavior, know how to 
report suspicious behavior and know how to react to suspicious 
behavior. And I think that event underscores the importance of 
good training in our system.
    Mr. King. Mr. Pascrell?
    Mr. Pascrell. Yes.
    Mr. Beres, the Department has stated several times, and you 
have stated today, that billions of dollars have been available 
for rail and transit security because states could have used 
their state homeland security grant funds for transit security. 
But you and I both know that states have to use most of those 
funds, and history is there, to meet the urgent training and 
equipment needs of police, fire fighters and paramedics.
    Given this situation, isn't it a little disingenuous to 
claim that billions of dollars have been made available for 
transit security when you and I both know that states really 
had no choice but to spend this money really on first 
responders?
    So what you are doing, in my estimation, and I would like 
your opinion, is telling communities they have to choose 
between first responders or transit with the very money that 
you talked about. I would like to hear your answer.
    Mr. Beres. Those programs, sir, are designed to take a 
holistic approach to preparedness to prevent any attack from 
occurring, whether it is in a transit system, on a bus or the 
building, in the street, to be able to protect critical assets 
within jurisdictions as local areas determine those being 
critical assets, be able to respond across the system to any 
type of event that should occur and able to recover should any 
event occur.
    We asked each state and urban area to do a risk assessment 
to determine how they should allocate their funds and come up 
with a strategy. Parts of those assessments were obviously 
transit infrastructures within those urban areas, and then they 
had the ability to take a look at their preparedness programs 
from a holistic view to determine where they should allocate 
their assets based on their risk approach and their risk 
assessments.
    And they had the ability to allocate protection measures 
within those transit agencies as they saw fit or invest in 
response if they felt that protective measures within those 
transit agencies were not the best way to mitigate the risk at 
the time or other prevention measures, including developing 
fusion centers and sharing information across their agencies or 
with other state agencies.
    Mr. Pascrell. Mr. Beres, you know that we provide money 
directly to the ports of this country. Why don't we do the same 
thing to the transit systems throughout the United States of 
America? Then we would know we know what our vulnerabilities 
are. Then we would know where the money is going and if it is 
properly spent. Why don't we do that way?
    Mr. Beres. Well, we have recognized, sir, obviously, that 
we do need to allocate some direct resources to the transit 
agencies in this country, and we have done that, actually, 
prior to the Madrid bombings and since then; that is, a total 
of $256 million in direct assistance to transit authorities, 
but--
    Mr. Pascrell. In the last 3 years.
    Mr. Beres. Right, understanding that those are still part 
of a larger operational whole within a community and one asset 
within those communities in which the overall preparedness look 
from an urban area or a state should take into account how they 
are going to respond if something should occur in the transit 
system or anywhere else.
    Mr. Pascrell. Mr. Jamison, are you satisfied with the 
collaboration with the DHS on the strategy that you outlined 
before? And when is the plan really going to be sent to the 
Congress of the United States that was supposed to be to the 
Congress by April 1 of this year?
    Mr. Jamison. As for the specifics of the delivery date, I 
would have to defer to the Department of Homeland Security, 
which is in the process of finalizing that plan. I will say 
that we have been pleased with the amount of input that we have 
been able to provide, the collaboration and the new focus, I 
should say, especially after London. Specifically DHS has 
sought out our knowledge and our understanding of the industry, 
as well as the programs and guidance that we developed, and is 
incorporating this into the security plan.
    Mr. Pascrell. What is the Department of Transportation's 
role in the transportation security system?
    Mr. Jamison. I think we play the important role of making 
sure that we are funneling information to the Department of 
Homeland Security so that they understand the industry and they 
can utilize our expertise. The Federal Transit Administration 
in particular, as you know, is primarily a grant-making agency. 
However, we have historically developed training programs for 
the industry on a broad variety of topics, we have developed 
guidance and best practices on a broad variety of topics, and 
we have conducted research that is critical to the industry.
    We will continue to play those roles in transit security in 
collaboration with DHS. In particular. we continue to make sure 
that we are informing DHS of our knowledge of the industry as 
they make prioritization decisions across the modes of 
transportation on security funding.
    Mr. King. Mr. Simmons?
    Mr. Simmons. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your testimony and for your 
day-to-day work trying to secure our homeland and in this 
particular instance our friends and neighbors who ride on the 
mass transit systems, to include my daughter who rides mass 
transit from Brooklyn to Manhattan twice a day, 5 days a week. 
So I thank you for your work.
    I chair the Intelligence and Information-Sharing 
Subcommittee, so I would like to focus a little bit on the 
topic of intelligence. And I noticed, Mr. Beres, that on page 8 
of your testimony you state that the ODP is developing a suite 
of intelligence training courses for state and local responders 
by including information on intelligence gathering, data 
mining, types of intelligence, channels of communication, et 
cetera, et cetera, and I certainly welcome that activity. I 
think the more intelligence training our people have, the 
better off we are going to be.
    I also agree with a statement that Mr. Jamison made on page 
4 that capital expenditures alone are not enough to assure 
security. Clearly, in London, there were cameras, there were 
all sorts of security devices, capital expenditures were made. 
It was inadequate to prevent those attacks, and I remind my 
colleagues that the Great Wall of China was a terrific capital 
expenditure when it came to homeland security. So was the 
Maginot Line for that matter, more recent capital expenditure. 
But neither the Great Wall of China nor the Maginot Line 
worked.
    So we have to be smarter. Yes, we have to make some capital 
expenditures, but we also have to develop those intelligence 
capabilities that give us forewarning so that we can prevent 
these attacks in the first place. I mean, we can spend an 
infinite amount of money training for attacks on the assumption 
that they are going to occur, but if we can prevent them, then 
that is the best of all worlds.
    And, Mr. Jamison, you made the statement that prevention of 
attacks like those in London will be grounded in useful 
intelligence. Unfortunately, little intelligence was available 
prior to those attacks.
    For both of you, from the standpoint of prevention, from 
the standpoint of intelligence warning to prevent attacks, how 
can we do better? What more can we do? Where should we be 
focusing? It would seem to me that a relatively modest 
expenditure of money for prevention and intelligence capability 
would save us a huge expense of cleaning up the mess after the 
fact.
    Mr. Jamison. I guess I will take it first.
    Congressman I agree with your comment that intelligence is 
critical in that transit security, as we learned from London, 
is definitely dependent on good intelligence as well as good 
training and emergency preparedness and public awareness.
    You know, I am not an intelligence expert but I do realize 
the importance of getting good information to transit security 
officials, so they are able to develop a strategy and deploy 
their security forces, explosion detection forces and other 
response techniques and preparedness techniques based on the 
threat that they know they are going to be facing.
    We focused on that early at DOT. We helped fund and develop 
a transportation ISACs Information Sharing and Analysis Center, 
that allowed us to put transit experts into a private 
confidential setting to interpret intelligence information and 
get it to the transit industry.
    We also focused on making sure that all the transit 
agencies were represented on their local JTTFs FBI Joint 
Terrorism Task Force, the ones that had not been able to 
participate in get on those forums. I am pleased to say that 
that flow of information has gotten much better extremely. But 
I am going to rely on the intelligence experts to tell me what 
we need to do to get better and more accurate intelligence.
    Mr. Beres. I have got to agree with your comments 100 
percent. I believe if something has occurred, it is too late. 
We are cleaning up and trying to mitigate the damage after 
that. We need to make sure that we have the ability to prevent 
something from occurring so that we do not have to get into the 
response and recovery mode afterwards.
    I think we have an opportunity, and we have tried to press 
this through our grant programs, to harness our state and local 
partners that are out there, whether they are law enforcement 
officials, fire fighters, departments of transportation, other 
public works people who are on the ground every single day, in 
communities, within transit agencies, to have the ability to 
notice things that are out of place or wrong, take them to a 
place within their local community, be it a terrorism early 
warning group or an intelligence fusion center, and then share 
that information across the country back up to the Department 
of Homeland Security or to the JTTFs within those communities 
also.
    And we are working very hard to provide training to state 
and local public safety officials and others to notice what is 
out of place and the types of things to look for and also 
develop, as I mentioned earlier in my testimony, a suite of 
intelligence analyst courses so when that information reaches a 
fusion center at a state and local level the Department and the 
FBI and others have confidence in the training that those 
analysts have so that the analysis is good and solid analysis 
when it comes back up to us so that we can have the consistency 
in that information.
    Mr. King. Gentleman from North Carolina?
    Mr. Etheridge. Thank you, Mr. Chairman.
    Gentlemen, you have both talked about this whole issue of 
how you are working together to coordinate your public 
awareness campaigns. Let me ask this question: To what extent 
does FTA and DHS coordinate their public awareness campaigns?
    It follows on this very same thing, if you are not 
preparing and making people aware, then you are going to be 
cleaning up. So to what extent are you coordinating?
    Mr. Jamison. Well, let me take that. First of all, early 
on, after we--
    Mr. Etheridge. And let me ask you to go one step farther as 
you are doing it. In addition to that, if you are not 
coordinating, then aren't we sending a mixed message and people 
are not really sure what is going on?
    Mr. Jamison. Let me respond to your second point first. I 
think it is very important that we have one message as the 
federal government, and that we do not duplicate programs 
unless there is a need to have several different delivery 
mechanisms to have an impact.
    Early on, we recognized the need for public awareness after 
we completed 37 vulnerability assessments across the nation's 
largest transit agencies and early that public awareness--quite 
honestly we learned a lot of this from our colleagues in 
London--that effective public awareness campaigns are very 
important. So we developed a national strategy, a template for 
the ``Transit Watch'' program that we sent out to all the 
transit agencies in the country. It allowed them to use a 
standard template for posters, for messages on the PA 
announcement, for advertisements, and so forth and so on.
    And as we started working with DHS and with the Office for 
Domestic Preparedness, they recognized that we had gone a long 
way and they built upon our programs without recreating 
programs. I think that is a good example of the way we need to 
move forward on all of our programs, recognizing the work that 
has been done, the strengths and weaknesses of our federal 
partners and continuing to work together to improve transit 
security.
    Mr. Etheridge. To what extent are you coordinating, though, 
that is my question. I mean, if I walked out on the street and 
I stopped someone coming off the subway or somewhere else and I 
asked that question, what kind of answer would I get?
    Mr. Jamison. I do not understand exactly what you are 
asking me. We are coordinating very closely to make sure that 
the funding requirement or the eligibility for funding that is 
available to roll out public awareness training and those types 
of activities is in coordination with DHS. Each individual 
transit agency takes our guidance and takes the funding that is 
developed by DHS and customizes that for their, a unique 
operating environment, their unique locations, their unique 
evacuation plans, and then rolls that out.
    Quite honestly, we have learned a lot from the transit 
agencies that have been on the cutting edge of that, and we 
continue to bring that information in to the national 
headquarters level, refine it and get it out to the other 
transit agencies so that they can learn from the experience of 
the nation as a whole.
    Mr. Etheridge. Mr. Beres?
    Mr. Beres. Just to reiterate Mr. Jamison's comments, that 
they have developed a program that we did not go back and 
redevelop. They put it out there amongst the transit agencies, 
we reference that in our grant guidance and other publications 
that we have out, that funds may be used to implement those 
programs so they can tailor their awareness campaigns as they 
see appropriate, as Mr. Jamison mentioned. And that is how the 
coordination works.
    A great benefit is obviously us not going back and 
reinventing the wheel on something that has already been 
created by FTA but leveraging our resources that we have at the 
state and local level to help implement the things that have 
already been done at that level.
    Mr. Etheridge. Do we have any kind of assessment measure to 
know what kind of results we are getting?
    Mr. Jamison. Actually, we are going to try to do a lot more 
work in that area, but I must say that the Federal Transit 
Administration 3 years ago put together a top 20 checklist of 
priority items that we felt transit agencies need to conduct in 
order to improve their security level, and we held our managers 
accountable for making sure that those were implemented at the 
largest agencies across the nation.
    Public awareness is high on that list, and every month we 
double check and make sure that we still have effectiveness in 
each of those areas. As I mentioned in my--
    Mr. Etheridge. Well, my question is, are we doing an 
assessment to know how the dollars are being spent, and are we 
getting the results for the dollars we are spending? You know, 
we do it to public schools, it is called a test.
    Mr. Beres. Right. We have been developing through Homeland 
Security Presidential Directive 8, a series of target 
capabilities that each jurisdiction must be able to meet, and 
the tests that we will end up doing will be performance-based 
series of exercises to determine how well they are working to 
meet their prevention capabilities, their response capabilities 
and others.
    Even during this time right now, before those capabilities 
have been completed, we do have specific guidance in our 
Homeland Security Exercise Evaluation Program where when we do 
exercises within a transit agency, that we evaluate all the 
different capabilities primarily in this case full response, 
one of which would be how the public evacuation plans and those 
things work during the exercise themselves, which would have a 
direct effect on some of the public awareness.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Feedback on this I think is so critical because you are 
talking about life and death, and prevention is the critical 
piece of it. It gets to be what Mr. Simmons said earlier, you 
know, you can prevent it up-front, but you never know how well 
you are doing unless you do some kind of assessment into where 
you are coming out.
    Thank you, and I yield back.
    Mr. King. I thank the gentleman for his line of 
questioning.
    The gentleman from New Mexico, Mr. Pearce?
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Beres, to continue the line of questioning by Mr. 
Etheridge there, exactly how are you going about setting up 
this yardstick, this assessment tool?
    Mr. Beres. We have been working on this for quite some time 
now, working with our federal partners and our state and local 
partners to identify first the universe of tasks that are 
required across the government, state and local levels, to 
handle prevention and response and recovery aspects and 
protection pieces. And then we have put those tasks into what 
we call 36 universal capabilities, 36 different capabilities 
that we believe jurisdictions must have to be able to prevent, 
respond or recover to incidents.
    Mr. Pearce. So are we measuring those things now?
    Mr. Beres. What we are doing right now is putting the 
final--
    Mr. Pearce. Are we measuring those things now?
    Mr. Beres. We are measuring the majority of those things 
right now through our Homeland Security Exercise Program. We 
are putting the final touches on some of our--
    Mr. Pearce. So you actually go out and assess them. Mr. 
Etheridge was on point. Do you go out and assess those in our 
communities and why not?
    Mr. Beres. At the request of--actually, all of our dollars 
when state and locals are doing an exercise using any of our 
funds, they must use our homeland security exercise 
evaluations.
    Mr. Pearce. You are talking about exercises, and the two of 
us are talking about assessment, and I am asking do you assess 
them in the communities right now? Do the communities know 
anything about it?
    Mr. Beres. I think we are--
    Mr. Pearce. Our office submitted to you about 4 months ago 
to Mr. Corey Gruber in ODP a certified community preparedness 
initiative that we went to a local university that does 
homeland security training. We thought that measurement tools 
were pretty critical too and assessment was pretty critical for 
the first responders. And your people have been sitting on that 
over there for 4 months. Meanwhile, you are preparing a 
duplicate thing, and people like Mr. Etheridge and myself find 
some level of frustration that we are not moving anywhere.
    Mr. Jamison, as far as the transit security grants, you 
have got about $250 million out there, about 4 percent. Four 
percent has been utilized. The 4 percent that has been 
utilized, do you have a team that goes around and looks at the 
money that has been spent to see if it has been spent properly?
    Mr. Jamison. Actually, we do not.
    Mr. Pearce. You know, we wasted $239 million on the 
northern border and the southern border from cameras that did 
not work, cameras that would not put in. So what verification 
do you intend as a department to go in and make sure this money 
is not squandered like the last $239 million that supposedly 
went for security cameras?
    Mr. Jamison. First of all, I agree with your point that we 
must make sure that capital expenditures are made from a risk 
assessment standpoint, that funds are provided based on the 
threat environment, and also that transit-agencies have the 
operational resources and the necessary maintenance and 
operations plans to make them effective.
    However, you are referring to the Department of Homeland 
Security Grant Program, so I will defer to my colleague, Tim, 
on the follow-up on how--
    Mr. Pearce. Tim, are you all the ones that oversee the 
Transit Security Grant Program of $250 million?
    Mr. Beres. We are. And we have a monitoring program that we 
go out after the projects have been implemented to go out and 
determine--
    Mr. Pearce. Is this the same monitoring program that was 
used by ICM?
    Mr. Beres. That was not a program that we managed in our 
office, and I am not familiar with their monitoring protocol.
    Mr. Pearce. But you have been out and you have seen the 
cameras working?
    Mr. Beres. As those projects are finished, yes, sir, we 
would go out and monitor those projects to make sure that what 
they said they were going to spend the money on was spent 
accordingly and that those are functional.
    Mr. Pearce. Mr. Jamison, there has been a great stir about 
an overall strategic plan. Why don't we just mirror the plan 
that the European countries use, Britain or any of the ones 
that have had attacks?
    Mr. Jamison. I think that the knowledge that we gain from 
international attacks is pulled into the plan. All of the 
strategy that we discussed--
    Mr. Pearce. No, I am asking, why don't we just mirror the 
plans that they have in place? Surely, they have got strategic 
plans in place, don't they?
    Mr. Jamison. We have pulled a lot of the components--
    Mr. Pearce. Not you all, the British. Do they have a plan?
    Mr. Jamison. I understand. We have pulled several 
components of British transit security best practices into the 
guidance that we provided and we will continue to do that. And 
I think we need to make sure that we follow up in a few weeks 
with the British and determine what new measures that they are 
taking, because they have dealt with this many more times than 
we have in the United States.
    Mr. Pearce. You both have mentioned the importance of 
protecting against IEDs. Are you familiar with the blocking 
mechanism that we are using in Iraq right now?
    Mr. Jamison. I am not specifically familiar with it.
    Mr. Pearce. Well, we have an mechanism that will block the 
signal that is used to trigger an IED, and neither one of you 
are aware of it.
    Mr. Beres. No, I have heard of it.
    Mr. Pearce. Heard of it. Are you, as an agency, actively 
engaging in it? If you are going to protect from IEDs, it seems 
like it would be a long way along the trek to having a blocking 
mechanisms on our train.
    Mr. Chairman, our time has expired. Thank you.
    Mr. King. Gentleman from the state of Washington, Mr. 
Dicks?
    Mr. Dicks. I am still trying to understand the 
administration's position, and I know my friend from New Jersey 
has already talked about this, but you are saying that $8.6 
billion has been appropriated for the Urban Area Security 
Initiative and the State Homeland Security Grant Program and 
that can be used for transit security. Is that correct?
    Mr. Beres. That is correct.
    Mr. Dicks. How much of it has been used for transit 
security?
    Mr. Beres. When we ran our last numbers that we were 
looking at, I believe, in fiscal year 2004, it was 
approximately $25 million of that money had been used 
specifically for transit security items and somewhere around--I 
believe, actually, that was the total--about $20 million in 
fiscal year 2004 and $5 million out of the initial plans for 
using fiscal year 2005 funds related specifically to transit 
security.
    Mr. Dicks. 2004 was, what did you say again?
    Mr. Beres. About $20 million, sir.
    Mr. Dicks. Now, the American public transportation survey 
says that $6 billion is needed. Certainly, the Feds cannot fund 
all of that, but is $25 million enough?
    Mr. Beres. Well, I am not familiar with that study or what 
pieces they were looking at in that study. I think what you 
have to look at too is the totality of the $8.6 billion and how 
it is being used in the communities for overall response, 
prevention and recovery activities, not just those specific to 
security enhancements at transit agencies. We have also, as I 
mentioned earlier, dedicated $256 million specifically for 
transit security enhancements.
    Mr. Dicks. Is that through the Transit Security Grant 
Program?
    Mr. Beres. Yes, sir.
    Mr. Dicks. And that is part of the Urban Area Security 
Initiative?
    Mr. Beres. It is.
    Mr. Dicks. We have a number of $142 million in transit 
security grants, rail and ferry in fiscal year 2005 to major 
metropolitan transit authorities throughout the United States.
    I guess the point I am trying to get to is, the people who 
looked at this think we are not doing enough, and what is the 
position of the Department? I guess now with the Transit 
Security Grant Program--but it actually only goes to the 
largest cities, right?
    Mr. Beres. It goes to the highest threat urban areas.
    Mr. Dicks. So the other communities would have to take part 
of their first responder money and then use that for transit 
security, because they would not have another source of 
funding, would they?
    Mr. Beres. If they had a major transit system within their 
area, but the 25 largest and highest risk transit agencies are 
within those high threat urban areas.
    Mr. Dicks. Now, I also understand that there was a major 
study--I am trying to find it here--there was a major study 
that was supposed to be done in April--oh, here it is. On April 
5, 2005, Deputy Homeland Security Secretary Michael Jackson 
wrote the committee to report that the national transportation 
security strategy that was required to be completed and 
submitted to Congress before April 1, 2005 was not going to be 
finished.
    One of the reasons Deputy Jackson stated for the missed 
deadline was the need for further collaboration with the 
Department of Transportation. Given the events over the last 2 
weeks, we believe that this strategy should be created sooner 
rather than later. Can you give us the status of this 
particular report?
    Mr. Beres. That report is not being directly managed 
through my office. I will be happy to go back to the Department 
and find out what the status is for the committee, but I do not 
have any knowledge right now of what the status of that report 
is.
    Mr. Dicks. Now, I also understand that there have been 
meetings between the Department of Homeland Security and the 
Department of Transportation, and you have signed a memorandum, 
and the memorandum stated that the Department of Homeland 
Security has the lead for transportation security. Is that 
correct?
    Mr. Beres. That is correct.
    Mr. Jamison. That is correct.
    Mr. Dicks. What is the Department of Transportation's role 
in transportation security? None whatsoever? It is all Homeland 
Security?
    Mr. Jamison. Well, as I mentioned before, I think we play a 
very valuable role in providing industry information, secondary 
information and specific knowledge to our individual modes. We 
need to make sure we feed that information into Homeland 
Security, as they use that information to prioritize threats, 
vulnerabilities and consequences across the transportation 
modes.
    We have been very heavily involved in providing input into 
the strategy that you mentioned earlier. We are awaiting the 
finalization of that by the Department of Homeland Security as 
well, but we play a very vital role in that area.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. King. Thank you, Mr. Dicks.
    And the other gentleman from the state of Washington, 
Sheriff Reichert?
    Mr. Reichert. Thank you, Mr. Chairman.
    Good to see you, Mr. Jamison.
    Mr. Jamison. Good to see you.
    Mr. Reichert. I have to come at this again, as I do just 
about every homeland security hearing from the street level and 
where the rubber meets the road or cops hit the street, so to 
speak.
    Everything you have said are words that we have heard 
before: Cops across the country, law enforcement agencies, 
sheriffs' offices, police departments. I really appreciate the 
holistic point of view, I think that is certainly a way to go. 
We have to have a strategy. We should have studies, we have to 
have training, we have to have equipment, working groups and 
exercises and strategies, and all those words sound good. But, 
again, when it gets down to doing the job, cops want action and 
that is part of what is lacking.
    You know, just a few weeks ago, Commissioner Kelly of NYPD 
and the sheriff from Minneapolis-St. Paul testified that they 
are using resources from both of their police departments, and 
New York is an example that is certainly by far an extreme 
example, but they are spending $178 million a year of their own 
money on homeland security.
    Pre-September 11 they had 12 officers assigned to 
counterintelligence and intelligence work within their city. 
Now, they have over 1,000. All of those officers, some, are 
spread across the world in other countries to gather 
intelligence not only on things happening in their city, in 
their airports but also in their transit system.
    They feel like I think most law enforcement agencies like 
the federal government's let them down. I mean, it is good, 
again, to be trained.
    Brian Jenkins said, ``Cops are it. We are going to win this 
at the local level.'' According to Commissioner Kelly, we are 
protecting national interests here. We are doing a job for the 
national government, for the security of this nation.
    My point is that at some juncture here the Department of 
Homeland Security has to step up and say, ``Local government 
cannot afford to provide bodies, personnel.'' Everything else 
is there for us, but for NYPD to put out $178 million and 1,000 
police officers and take them from duties that they were 
involved in before in fighting crime in that city is wrong. I 
need some federal assistance from the federal government.
    For my sheriff's office in Seattle, to take 5 people out of 
1,100 employees, we are happy to do it, we want to protect this 
country, but we need help in providing personnel, especially 
when it comes to the metro systems, which we are responsible 
for in the Seattle area, the King County Sheriff's Office.
    Can you respond to future plans to help us in providing 
personnel for the analysis of intelligence, prioritization of 
intelligence, assigning risk and threat and providing personnel 
to help protect our metro systems and our transit systems?
    Mr. Beres. Yes, sir. The Department views this in obviously 
all of homeland security as a shared responsibility between the 
federal government and the local units of government that has 
law enforcement responsibility operationally to prevent an 
activity from occurring within their own jurisdictions. And 
what we have done is allow some of our funds to be used, a 
certain percentage of our funds to be used to pay for overtime 
and back bill for participation on terrorism early warning 
groups--
    Mr. Reichert. I hate to interrupt for just a second. You 
saw what happened in London. It was the first responders who 
were there to respond to those bombings in London, and that is 
the kind of help we need.
    Mr. Beres. Yes, sir. The Department right now has not 
looked at using any of our grant funds for any hiring programs 
at this point, but--
    Mr. Reichert. Would you be willing to do that, examine that 
possibility, please?
    Mr. Beres. I will take that back, absolutely.
    Mr. Reichert. Thank you.
    Thank you, Mr. Chairman.
    Mr. King. Gentleman from Texas, Mr. McCaul?
    Mr. McCaul. Thank you, Mr. Chairman.
    And this has been touched on before, but we have $250 
million in transit security grants that have been authorized, 
but only 4 percent have been drawn down of that $250 million. 
We also have about $8.2 billion in homeland security grants, 
and yet 70 percent of that funding remains in the pipeline.
    Some would argue we need to, in the Congress, appropriate 
more money for this purpose. It seems to me, given these 
figures, that the money is there, it is just not being drawn 
down and spent properly. Would you care to comment on that?
    Mr. Beres. I believe that the draw-down figures do not give 
an accurate picture of activity on those grants. They are an 
easy number to look at because they are very valuable. It is 
like looking at your checking account and what is in and what 
is out, but it does not show precisely what obligations have 
been made on those funds and what outlays have been made on 
those funds.
    It could very well be that funding has been laid out for 
certain pieces of equipment that is out there that has not been 
received or was received and damaged and they are sending it 
back, they have not paid the invoices. Having worked in federal 
assistance programs for the past 11 years, generally what you 
see are the draw-downs on funds are not made till the end of 
the grants anyway. And these are 2-year grants, so generally 
you see those draw-downs occur at the very end.
    The other part of this is that much of the funding can be 
allowed for exercises and training and for planning, which 
could occur over a 2-year period, and they would draw-down that 
funding as they acquired those costs and attended training or 
conducted exercises.
    Mr. McCaul. Mr. Jamison, you care to comment?
    Mr. Jamison. I think it is just very important that as we 
embark on capital spending and as we prioritize those funds, 
that we make sure that we spend them in the correct manner, as 
the chairman indicated earlier. We must make sure we get the 
most out of that money and make sure that we have the 
operational resources to support capital spending. And I think 
that is some of the delay that you have seen in spending those 
funds, as people try to understand and implement--on very 
different systems across the country--individual 
counterterrorism and countermeasures to make their systems more 
secure.
    Mr. McCaul. And so in a sense these numbers may be a little 
bit misleading is what you are saying. Do you believe that the 
amount appropriated is sufficient for our transit security 
needs at this critical time in our history?
    Mr. Beres. I believe the secretary was before the full 
committee yesterday, and I will echo what his words were on 
this issue, which is anything that--the funding that should be 
appropriated should give the Department the maximum amount of 
flexibility to allocate the funds based on risk. And taking a 
look at risk, whether it is transit or ports, other places, 
people and all the other different things, and I believe that 
is the way we should look at this issue of having flexibility 
in allocating the funding.
    Mr. McCaul. My second question has to do with the analysis 
of what happened in Madrid and now recently in London. 
Typically, an organization will draw down lessons learned to 
better protect if, God forbid, it happens or there is a threat 
in our country.
    What are the lessons learned from these two bombings that 
Homeland Security has taken? And, secondly, what technologies 
are we looking at? I know in the London subway they have 
cameras, surveillance cameras. Are we looking at something 
along those lines?
    Mr. Beres. Many of the requests for use of our funds have 
revolved around the use of cameras and close-circuit 
television. We are in the London subways. I know we are looking 
at lessons learned. In London, there is a joint contact group 
that is headed up by the Executive Director of our office that 
works with the British government on all things that are 
preparedness. We will end up taking those lessons learned as 
appropriate and putting those into our guidance and training 
and exercise program, as those become available and as we see 
where they fit in our vast array of programs that we have.
    Mr. McCaul. Well, of course time is of the essence at this 
point. I would hope that you could do that rather quickly. And 
of course Madrid, I think, would provide some guidance as well.
    Mr. Beres. Agreed.
    Mr. Jamison. And I will comment on that very quickly. We 
continue to look back at Madrid and we have been looking at 
London and will continue to look at London to make sure we are 
pulling that information into guidance that we prepare for the 
transit agencies.
    Lessons learned from Madrid: they did not have a lot of 
measures in place that London had in place, including a public 
awareness campaign and good training for a lot of their front-
line employees. You know, London had those things in place. 
They are one of the best prepared subways in the world. 
However, even the CCTV closed circuit television and some other 
technologies did not prevent the attack.
    And I think that reinforces the point that we have got to 
make sure that we have got our operational personnel security 
trained, and we focus on good intelligence to make sure that we 
can direct that detection capability to the places that we need 
to deploy it. Also, to make sure that our passengers are 
helping us pinpoint suspicious activity, and that we are 
prepared to respond in case something happens. And we continue 
to work those areas, and we will continue to follow up.
    Mr. McCaul. Well, thank you. I see my time has expired.
    Mr. King. Thank you, Mr. McCaul.
    The time for the questioning of the first panel has 
expired, and the line of questioning has ended. However, I 
agree with Mr. Pascrell, I will ask one final question without 
opening up a second line of questioning.
    This really follows what Mr. McCaul was saying. On the 
question of technology research, apart from just looking at 
lessons learned from London and Madrid, it has become obvious 
through the testimony and through the questioning that mass 
transit is so different from aviation, it is a much larger 
problem in many ways.
    What are you doing as far as technology research to find 
out what will work? We cannot put cameras in every station, 
everywhere in the country, we cannot use everything that is 
being suggested. But what are you doing to find out, as far as 
through technology research, to find out where we can get the 
best results from the best type of new technology and what are 
you doing in that regard?
    Mr. Beres. I know our Directorate of Science and Technology 
is working on all different types of detection technologies and 
other types of technologies that would help in the detection 
and protection of critical assets. I would defer and like to 
take that question back to the Department to get back to you on 
the specific things that they are working at and provide that 
back to the committee.
    Mr. King. I would appreciate if you would go back and have 
them get the information as soon as possible to us. Thank you.
    Mr. Dicks. One of the realities is we are facing these 
suicide bombers, and when you are looking at this, I mean, from 
a technology perspective, it would be interesting for the 
committee to know what specifically we are looking at to deal 
with suicide bombers.
    Thank you, Mr. Chairman.
    Mr. King. Thank you.
    Mr. Jamison?
    Mr. Jamison. You know, we must continue to pursue screening 
technologies, chemical-biological sensors, surveillance 
techniques, intrusion detection technology, automatic vehicle 
locators so that we can track our equipment. And we have 
conducted research in chem-bio sensors and intrusion detection, 
those types of surveillance activities, but I must reiterate, 
as we continue to pursue that, security is hugely operational; 
London has told us that.
    We must continue to focus on training, even as we pursue 
those technologies, and make sure that when we do have an event 
that we can respond and continue to train. But we continue to 
pursue research in those areas.
    Mr. King. Thank you, Mr. Jamison.
    I want to thank the witnesses, Mr. Beres, Mr. Jamison, for 
their testimony. It was very informative, very responsive. So 
thank you for your time, thank you for what you are doing for 
our country.
    The witnesses are excused, and we ask the second panel to 
come forward.
    Mr. Beres. Thank you.
    Mr. Jamison. Thank you.
    Mr. King. Thank you very much.
    I would like to welcome all of our witnesses to the second 
panel and thank you for your appearances here today.
    We have Chief Polly Hanson, Metro Transit Police 
Department, Washington Metropolitan Area Transit Authority; 
Chief Bill Morange, deputy executive director, director of 
security, New York State MTA; Mr. Paul Lennon, director of 
intelligence and emergency preparedness management, L.A. County 
Metropolitan Transportation Authority; and Mr. Christopher 
Kozub, associate director, National Transit Institute.
    I would like to ask Chief Hanson if she would go first.
    And, again, I would ask all the witnesses if they could 
possibly keep their statements to 5 minutes or less, and we 
will certainly incorporate the full testimony as part of the 
record.
    Chief Hanson?

 STATEMENT OF POLLY HANSON, CHIEF OF METRO POLICE, WASHINGTON 
                  METRO AREA TRANSIT AUTHORITY

    Chief Hanson. Thank you, Chairman King and members of the 
committee. Good morning, and thank you for asking WMATA, which 
is the Washington Metropolitan Area Transit Authority here in 
Washington, D.C., to testify this morning.
    I am Polly Hanson, chief of the Metro Transit Police.
    By way of background, WMATA was created in 1967 as an 
interstate compact agency through enactment of legislation by 
the Congress and the Commonwealth of Virginia, state of 
Maryland, District of Columbia. Each day we move 1.2 million 
trips on our rail and bus systems. We are the second largest 
subway system and fifth largest bus system in the United 
States. We are widely recognized as being critical to the 
operation of the federal government.
    Over 150,000 federal employees, about 45 percent of the 
region's federal employees, participate in our MetroCheck 
Program, and nearly half of all Metrorail stations serve 
federal facilities. Approximately 10 percent of Metro's daily 
ridership uses stations next to the Capitol and the Pentagon.
    The Metro Transit Police was established in 1976. We are 
the nation's only non federal tri-state police force. We have 
an authorized strength of 400 sworn transit police officers and 
101 special police officers, like guards. Our purpose is to 
prevent crime, protect Metro's customers, employees, facilities 
and revenues, enforce laws, ordinances and rules and 
regulations.
    As the largest transit provider for the National Capital 
Region, Metro takes its responsibility in homeland security 
with the seriousness is demands. WMATA's approach to transit 
security involves a partnership between employees, customers 
and the transit police and other police departments in the 
region and the federal government. Our training initiatives 
designed to enhance both WMATA and the region's emergency 
preparedness reflect these partnerships.
    Just this spring, we launched a new training initiative 
entitled, ``Managing Metro Emergencies.'' The training was 
devised and developed in response to the Madrid bombings as 
well as a recent series of service disruptions that forced 
thousands of customers to evacuate the Metrorail system. The 
``Managing Metro Emergencies'' course is providing 
approximately 1,500 regional law enforcement, fire and rescue, 
Department of Transportation and WMATA personnel with enhanced 
training for mitigating, evacuating, transporting and 
recovering from a major service disruption in our system and 
was funded with Regional Urban Area Security Initiative ODP 
funds.
    WMATA also intends to use a portion of its fiscal year 2005 
Department of Homeland Security Bus Transit Grant allocation 
towards the development of an anti-terror training initiatives 
focused on bus operators, and all the local and regional bus 
operators that feed into WMATA's bus systems will be invited to 
participate.
    We have an emergency response facility that opened in 2002. 
It is the only transit facility of its kind in the nation that 
is available 24 hours per day, 7 days a week to train emergency 
personnel. It includes a mock train tunnel that allows regional 
emergency responders to train for disasters'smoke/fire, 
collisions.
    WMATA's emergency management team has trained over 2,000 
federal, local, state emergency personnel each year, and it was 
awarded the APTA Innovation Award in 2004.
    We continue to be an active participant in various regional 
exercises. We have sponsored a series of tabletop exercises 
with key regional players, the federal agencies, as part of our 
effort to enhance continuity of operations following the 
September 11, and WMATA also participates in regional drills 
and exercises sponsored by DHS, the Metropolitan Washington 
Council of Governments and other local jurisdictions in the 
NCR.
    I note, Mr. Chairman, that your subcommittee also has 
jurisdiction over science and technology issues, and you have 
brought up those issues today. I would like to take a moment to 
tell you about some of our initiatives.
    We continue to serve as test bed for the federal government 
and a model for the country on transit security initiatives. We 
have a chemical detector system, commonly known as PROTECT. It 
has become a model for other transit agencies across the 
nation. Working with federal partners at DHS and DOT, WMATA 
continues to train and provide technical assistance on the 
PROTECT system to anybody interested. And that is just not here 
in the United States but our partners around the world.
    We are actively engaged with the Department of Homeland 
Security in efforts to leverage advances by PROTECT, maybe with 
toxic industrial chemicals and other emergency and emerging 
applications in chem, bio and explosive detection areas.
    In January of this year, the Metro Transit Police and TSA 
collaborated to enhance security at Metro stations during the 
presidential inauguration. It was the first time a partnership 
like this happened. We had the use of federal screeners with 
explosive trace detection gear, and canine teams from all over 
the United States supplemented our teams of canine officers to 
enhance the security of our system.
    And some of the lessons learned and SOPs developed will be 
made available to other transit properties and applied to other 
transit special events across the country.
    We are also working with DHS on expanding the application 
and training of personnel in the area of behavioral assessment 
screening. I think it is now called SPOT, and this is training 
provided by TSA.
    We have a long-standing productive relationship with FTA on 
a wide range of emergency preparedness initiatives. The FTA has 
provided WMATA and other transit agencies with technical 
assistance, support for continuity of operations planning, 
emergency drills, ongoing security forums and research 
conducted through the Volpe Center and the Transportation 
Safety Institute.
    In the case of training, the relationship is a two-way 
street with WMATA providing FTA with in-kind instructional 
support.
    A critical component toward ensuring that all training we 
conduct with our employees, first responders and federal 
government raises the region's emergency preparedness level is 
all to constantly engage our customers. We have increased 
public announcements to our customers. Our recent campaign is, 
``See it, Say it''--we hand these out at Metro stations--and, 
``Is that your bag,'' that was developed after Madrid, which 
was noted by then former Department of Homeland Security 
Undersecretary Hutchinson as an effective tool for raising 
passenger awareness.
    We are also conducting open houses at rail stations where 
transit police and our Safety and Communications Department 
hand out literature, disseminate emergency preparedness and 
safety brochures and also expand upon emergency procedures that 
can be found at our web site.
    Last year, Metro Transit Police launched a Metro Citizens 
Corps Program that provides Metro-specific training ranging 
from rail safety and emergency preparedness and response to 
identification of terrorist activity. It builds on a citizen 
corps program. The participants come from Citizen Emergency 
Response Teams already organized in the District, Maryland and 
Virginia.
    We appreciates the important contributions training 
provides towards enhancing our emergency preparedness and 
response capabilities, but, however, we realize there is always 
room for improvement. And we will continue to seek 
opportunities to communicate more effectively with our 
customers, reinforce SOPs with all employees and work with our 
many partners in the National Capital Region and our own 
operations and public safety personnel to refine, expand upon 
the progress achieved to date. I am here and happy to answer 
any questions you may have, sir.
    [The statement of Chief Hanson follows:]

                 Prepared Statement of Polly L. Hanson

    Chairman King and Members of the Committee, good morning and thank 
you for asking WMATA to testify at this hearing. I am Polly Hanson, 
Chief of the Metro Transit Police Department (MTPD) for the Washington 
Metropolitan Area Transit Authority (WMATA).

Background on WMATA and MTPD
    By way of background, WMATA was created in 1967 as an Interstate 
Compact agency through enactment of legislation by the U.S. Congress, 
and by the Commonwealth of Virginia, the State of Maryland, and the 
District of Columbia. The Metro System was designed to serve the 
constituencies of the National Capital Region, including employees of 
the federal government, the residents of the region, the citizens of 
our nation who come to Washington to do business with the federal 
government, and the millions of people who visit from throughout the 
world.
    Since the mid 1960's, there has been dramatic growth and change in 
the National Capital Region. As population and employment in this 
region has skyrocketed, the demands on and expectations of WMATA have 
also grown exponentially. Each day we provide 1.2 million trips on our 
rail and bus systems. We are the second largest subway system and fifth 
largest bus system in the United States. Metro is widely recognized as 
being critical to the operation of the federal government. Over 150,000 
federal employees (45 percent of the region's federal employees) 
participate in the Metrochek program. Nearly half of all Metrorail 
stations serve federal facilities, approximately 10 percent of Metro's 
daily ridership uses stations next to the Capitol and Pentagon.
    The Metro Transit Police Department was established in 1976. MTPD 
is the nation's first non federal tri-state transit police force. We 
have authorized strength of 400 sworn transit police officers and 101 
special police officers. Our purpose is to prevent crime, protect 
Metro's customers, employees, facilities and revenues and enforce laws, 
ordinances, rules and regulations.

    WMATA's Regional Emergency Preparedness Training Initiatives
    As the largest transit provider for the National Capital Region, 
Metro takes its responsibility in homeland security with the 
seriousness is demands. WMATA's approach to transit security involves a 
partnership between employees, customers, the transit police and other 
public safety departments in the region, and the federal government. 
Our training initiatives designed to enhance both WMATA and the 
region's emergency preparedness reflect these partnerships.
    Just this spring, Metro Transit Police launched a new training 
initiative entitled ``Managing Metro Emergencies.'' The training was 
devised and developed in response to the Madrid bombings as well as a 
recent series of service disruptions that forced thousands of customers 
to evacuate the Metrorail system. The ``Managing Metro Emergencies'' 
course is providing approximately 1,500 regional law enforcement, fire 
and rescue, department of transportation and WMATA personnel enhanced 
training for mitigating, evacuating, transporting and recovering from a 
major service disruption in our system. WMATA also intends to use a 
portion of its FY05 Department of Homeland Security (DHS) Bus Transit 
Grant allocation towards the development of an anti-terror training 
initiative focused on bus operations. All the local and regional bus 
operators that feed into WMATA's bus systems will be invited to 
participate.
    WMATA's Emergency Response Training Facility opened in 2002, and is 
the only transit facility of its kind in the nation that is available 
24 hours per day, seven days a week to train emergency personnel. The 
facility includes a mock train tunnel that allows regional emergency 
responders to train for disasters such as smoke/fire, collisions and 
potential terrorist incidents in a transit/tunnel environment. WMATA's 
emergency management team trains an estimated 2000 federal, state and 
local emergency personnel each year. The facility was awarded the 
American Public Transportation Association's Management Innovation 
Award for 2004.
    WMATA also continues to be an active participant in various 
regional exercises. WMATA sponsored a series of table top exercises 
with all key regional players, including federal agencies, as part of 
our effort to enhance continuity of operations planning (COOP) 
following the September 11, 2001 attacks. WMATA also participates in 
regional drills and exercises sponsored by the DHS, the Metropolitan 
Washington Council of Governments and various local jurisdictions in 
the National Capital Region.

Leveraging Federal Partnerships in Technology Development and Security 
Procedures
    I note Mr. Chairman that your subcommittee also has jurisdiction 
over science and technology issues and would like to take a moment to 
also discuss our training initiatives associated with our partnerships 
with the federal government in emerging detection technologies that are 
applicable to the transit environment.
    WMATA continues to serve as a test-bed for the federal government 
and model for the country on new transit security initiatives. Metro's 
chemical detector system, commonly referred to as ``PROTECT,'' has 
become a model for other transit agencies across the nation and around 
the world. The early warning data flowing from PROTECT is fully 
integrated into our Operations Control Center and the data and live 
images can also be accessed at safe zones for use by incident 
commanders in the region responsible for responding to an event. 
Federal partners who worked with WMATA in the development of the 
PROTECT system include the Departments of Justice, Energy, 
Transportation and Homeland Security. Working with our federal 
partners, WMATA continues to offer training and technical assistance on 
the PROTECT system to interested transit systems in the United States 
and around the world. WMATA is actively engaging the Department of 
Homeland Security in efforts to leverage the advances obtained by the 
PROTECT program to other emerging applications in the chemical, 
biological and explosive detection areas.
    In January of this year, Metro Transit Police and Department of 
Homeland Security's Transportation Security Administration (TSA) 
collaborated to enhance security at Metrorail stations and on trains 
during the days surrounding the presidential inauguration. The 
partnership with TSA, which included the use of federal screeners 
equipped with explosive trace detection gear and canines teams 
supplementing Metro's teams of officers and explosive detection 
canines, performed without a hitch and is being applied to other 
special events across the country. We are also working with DHS on 
expanding the application and training of personnel in the area of 
behavior assessment screening of passengers in a transit environment. 
In accordance with HSPD-5: Management of Domestic Incidents, Metro 
Transit Police officers have been NIMS/ICS trained and certified, and 
we have started to expand the training to key management and operations 
personnel.
    WMATA also has a long standing productive working relationship with 
the Federal Transit Administration (FTA) on a wide range of emergency 
preparedness initiatives linked to training and exercises. The FTA has 
provided WMATA and other transit agencies technical assistance and 
support for continuity of operations planning (COOP), emergency drills, 
ongoing security forums and research coordinated through the Volpe 
Center, and emergency training through the Transportation Safety 
Institute. In the case of training, the relationship has been a two-way 
street, with WMATA providing the FTA with in-kind instructional support 
for rail safety and emergency management courses.

Public Awareness/Education Campaigns
    A critical component towards ensuring that all the training we 
conduct with our employees, first responders and federal government 
raises the region's emergency preparedness level is to also constantly 
engage our customers. WMATA has increased public announcements to our 
customers, stressing the need to be attentive to their surroundings. 
Our recent public outreach efforts include campaigns known as, ``See 
it, Say it'' and ``Is that your bag?,'' which was cited by former 
Department of Homeland Security (DHS) Under Secretary Hutchinson as an 
effective tool for raising passenger awareness and involvement in the 
transit environment. We are also conducting monthly ``Open Houses'' at 
rail stations during the morning rush hour. During these events, 
officials from the Metro Transit Police and our safety and 
communications departments are on hand to answer questions from 
customers as well as distribute emergency preparedness/safety brochures 
and expanding upon emergency evacuation procedures that can be found at 
our web site: www.wmata.com.
    Last year, Metro Transit Police launched a Metro Citizens Corps 
program that provides Metro-specific training ranging from rail safety 
and emergency preparedness and response to identification of terrorist 
activity. Citizen participation initially consists of Citizen Emergency 
Response Teams (CERT) already organized in the District of Columbia, 
suburban Maryland and Northern Virginia.
    In 2003, WMATA, the American Red Cross of the National Capital 
Area, the Department of Homeland Security and the Federal Transit 
Administration co-sponsored a new national program designed to provide 
vital emergency preparedness information to the millions of American 
citizens who ride the subways, commuter trains and buses each day. The 
program, a partnership that also includes the American Public 
Transportation Association (APTA) features the distribution of 
``Together We Prepare'' brochures to customers of transit systems.

Conclusion WMATA appreciates the important contribution training 
provides towards enhancing our emergency preparedness and response 
capabilities and will continue to seek opportunities to work with our 
many partners in the National Capital Region to refine and expand upon 
the progress achieved to date. I would be happy to answer any questions 
posed by the Committee.

    Mr. King. Thank you very much, Chief Hanson, for your 
testimony.
    Our next witness is Chief Bill Morange. I will just add a 
personal note. Before going to the MTA, he was in the NYPD for 
39 years. He was actually chief of patrol on 9/11.
    As I understand, as you were coming out of the Battery 
tunnel, the second jet went into the south tower, almost 
directly overhead. So you certainly have on-the-ground 
experience and real-life experience.
    And with that, Chief Morange, I will ask for your 
testimony.

    STATEMENT OF WILLIAM MORANGE, DEPUTY EXECUTIVE DIRECTOR/
             DIRECTOR OF SECURITY STATE OF NEW YORK

    Chief Morange. Thank you, sir.
    Good morning, Chairman King and members of the 
subcommittee. My name is William A. Morange, and I am the 
deputy executive director and director of security for the New 
York State Metropolitan Transportation Authority.
    I appreciate this opportunity to discuss what the MTA has 
done and continues to do in light of 9/11, the Madrid incident 
in 2004 and the most recent events in London to train to 
respond to terrorists and other emergency incidents in our vast 
transportation system.
    Before I address the specifics of the topic at hand, permit 
me to tell you a little bit about the MTA. As you may know, the 
MTA is the largest multi-modal transportation provider in the 
Western Hemisphere and is comprised of several operating 
entities: the MTA New York City Transit, MTA Long Island Rail 
Road, MTA Long Island Bus, the MTA Metro-North Railroad, MTA 
Bus Company and the MTA Bridges and Tunnels.
    We provide some 8 million subway, rail and bus rides each 
day in a 4,000 square mile, 14 counties, 2-state metropolitan 
region, using 8,577 subway and commuter rail cars operating 
over 2,058 miles of track and over 6,000 buses covering in 
excess of 3,200 route miles. Our grand total of 2.4 billion 
rides a year accounts for approximately one-third of all 
transit rides taken in the United States. In addition, our 7 
bridges and 2 tunnels carry approximately 900,000 vehicles a 
day.
    I know that you have my remarks for the record, so I would 
like to just tell you a little bit about myself and also how we 
have become prepared in the MTA.
    As you well know, as you said, Chairman, I was the chief of 
patrol for the New York City Police Department on 9/11, and 6 
weeks prior to 9/11, we had a tabletop exercise that was done 
by the Office of Emergency Management, which was held in 7 
World Trade. And the scenario called for the closing down of 
Manhattan. And all of us old chiefs looked at one another and 
said there is no way that we will ever close down Manhattan.
    Well, 6 weeks later, as you said, Mr. Chairman, when the 
second plane hit, I came out of the Battery underpass, and I 
thought the second building exploded and I said on the air, 
``Car 5, the second building has exploded.'' And my driver at 
that time, who was my son, turned to me and said, ``No, it did 
not.'' He said, ``I seen the nose come through.'' And we were 
showered with all kinds of debris and all.
    But later on that day, after we moved our command post 4 
times, we wound up at Pier 40 uptown, and we closed down 
Manhattan from Canal Street down. And it hit me like a ton of 
bricks that that was one I thought we would never see and we 
wound up closing down Manhattan.
    And I found out on that day how important the 
transportation industry is in our country, because we had to 
get people out of Manhattan, and we also needed equipment to 
come in to help in the rescue, which later on turned into 
recovery. And I found out that we were able to get equipment 
from New York City Transit, from Metro North and also from Long 
Island Railroad to bring in heavy duty equipment so that we 
could move a lot of the debris.
    We were also looking for ways to take people out of 
Manhattan, and we were using buses to take people out of 
Manhattan into Upper Manhattan. We were putting people on the 
Long Island Railroad, onto Metro North to make sure that they 
left the city.
    The reason why I talk about the drill that happened 6 weeks 
prior was that a lot of senior leadership was lost on the day 
of 9/11, and I know there were a lot of reports come out about 
different things that were done and some things that might have 
been wrong with communications and all, but everything worked 
that day because everybody knew one another. And they knew one 
another because of their first names, because they were used to 
going to drills because we have done drills before, and they 
were used to talking to one another and they knew from other 
agencies.
    You know, at one time, one would say that the New York City 
Police Department was an entity of itself; it had 40,000 
people. On that day, everybody molded together and worked 
together and that is what it is all about.
    Also, in the MTA, we make it a point that all of our chiefs 
along the right-of-ways and all get involved with all the OEMs, 
they do drills with all of the counties that our right-of-ways 
go through, and we get to know all of the other responders. It 
is probably the most important part of any response to any 
incident is that people get to know who one another is.
    And I still say to this day that because of the way we 
prepared prior to 9/11 some things did work. There were things 
out there that really did work, and people have said it was 
probably one of the biggest rescue missions that there ever 
was. But, again, like I say, people were working along with one 
another.
    And also I know we were talking earlier about the 
importance of all of our technology and all, but I really feel 
that the most important technology that is out there right 
there today is the human element. And it is very important that 
our customers and that our employees are fully made aware of 
their surroundings. And that is something that falls on us and 
that we have to continually make sure that we put out ad 
campaigns, that we talk to our employees.
    In the MTA, in New York State, we have give out pamphlets 
to all our employees, to the 66,000 employees, telling them 
what to look for. We have the See Something, Say Something 
Program, which in that program it started in early 2002. We 
have all kinds of advertisements on our vending machines. We 
have it on the Web site. We continually make announcements on 
the trains. We put posters all around. We do ``seat'' drops on 
the commuter rails.
    And it is something that we constantly change. Every 6 
months we look for a different way of displaying our ``See 
Something, Say Something.'' And it works because our calls for 
suspicious packages have gone up tremendously since the start 
of this program.
    And also we have changed many ways with our employees. 
Like, we have track workers that used to go out and just look 
for safety issues, and we would tell them, ``You go out and 
look for?you know what belongs on those tracks, we do not know 
what belongs on those tracks. We want you to go out and look 
out and let us know what you see is different, and we will 
respond.'' We increased our canine units by--we had no dogs 
whatsoever before 9/11, and now we have 25 explosive detection 
canines.
    Just to give you some of the facts about the MTA?
    Mr. King. If you could, sir, wrap it up, because we have 
other witnesses.
    Chief Morange. Since 9/11, the MTA has spent over $240 
million on a series of operating and capital initiatives and 
enhanced security across the MTA system. We hired 200 
additional MTA police officers, we hired 200 additional bridge 
and tunnel officers. We incurred $35 million in MTA overtime, 
police overtime, and also we have spent over $100 million in 
capital projects of our own money.
    [The statement of Chief Morange follows:]

                     Remarks of William A. Morange

    Good Morning Chairman King and members of the Subcommittee. My name 
is William A. Morange, and I am the Deputy Executive Director and 
Director of Security of the New York State Metropolitan Transportation 
Authority (MTA.)
    I appreciate this opportunity to discuss what the MTA has done and 
continues to do in light of 9/11, the Madrid incident in 2004 and the 
most recent events in London, to train to respond to terrorist and 
other emergency incidents in our vast transportation system.
    Before I address the specifics of the topic at hand, permit me to 
tell you a bit about the MTA. As you may know, the MTA is the largest 
multi-modal transit provider in the Western Hemisphere and is comprised 
of several operating entities:
        <bullet> MTA New York City Transit (NYCT)
        <bullet> MTA Long Island Rail Road (LIRR)
        <bullet> MTA Long Island Bus (LIBus)
        <bullet> MTA Metro-North Railroad (MNR)
        <bullet> MTA Bus Company (MTABus)
        <bullet> MTA Bridges and Tunnels (B&T)
    We provide some 8 million subway, rail and bus rides each day in a 
4,000 square mile, 14 county, two-state metropolitan region, using 
8,577 subway and commuter rail cars operating over 2,058 miles of track 
and over 6,000 buses covering in excess of 3,200 route miles. Our grand 
total of 2.4 billion rides a year accounts for approximately one-third 
of all transit rides taken in the United States. In addition, our 7 
bridges and 2 tunnels carry approximately 900,000 vehicles a day.
    The events of September 11th were certainly traumatic for our 
region and our system. We were front and center at Ground Zero, with 
three separate subway stations directly serving the World Trade Center 
site and with hundreds of local and express buses disembarking 
passengers at the perimeter of the complex. It is safe to suggest that 
more than 80% of the Trade Center's 50,000 workers took one or more MTA 
services to get to work each day.
    But as tragic as the day was for New Yorkers and the nation, there 
was one overwhelmingly positive outcome on 9/11 for the MTA and for ALL 
our customers and employees. Despite the fact that our Cortland Street 
1&9 station was completely destroyed by the collapse of the twin 
towers; that four other stations were completely put out of service for 
as much as a year after the tragedy, and; that Church and West Streets, 
major north- and south-bound local and express bus routes were blocked 
by massive amounts of debris, not a single MTA customer or employee was 
killed or seriously injured in or on our system that day.
    Why, you may ask? Was it simply luck? Perhaps in part, but much of 
the answer lies in the MTA's long abiding commitment to preparing for 
emergencies. Our operating agencies have traditionally done more than 
simply writing volumes of emergency operating and response plans that 
sit on shelves. For many years, they have taken part in realistic 
multi-agency, multi-modal drills of those plans several times a year.
    On 9/11 in accordance with our plans and our drills, our subways 
whisked tens of thousands of riders from the virtual center of the 
World Trade Center site to safe locations north and south. Our buses 
carried hundreds of thousands of evacuees off Manhattan island. Our 
railroads transported shocked commuters safely to their homes and 
returned with dedicated rescue workers who had no other way to get into 
the City to help. Our bridges and tunnels played not only key 
evacuation roles, but, in the case of the Brooklyn Battery Tunnel, 
became the lifeline for emergency personnel and rescue equipment 
heading toward the scene.
    Some of those activities had been anticipated in previous emergency 
drills--though admittedly not on as large or dramatic a scale. 
Nonetheless, the experience, lessons learned, and perhaps most 
importantly, the relationships forged in those exercises certainly 
saved lives that day.
    Since 9/11 we actually had a real life opportunity to test what we 
do on a regional scale and our preparation once again proved to be 
invaluable to protecting our customers and employees. When the lights 
went out on August 14th, 2003, we--along with our partners in emergency 
preparedness throughout the region--were able to execute the safe 
evacuation of over 400,000 subway and rail customers from both 
underground and elevated parts of our system. We are proud that there 
were also no customer or employee injuries in those instances--a truly 
amazing feat in that the entire service region I described earlier was 
affected.
    What I'd like to do is take you through what each of our agencies 
did prior to 9/11--and continue to do--on a regular basis to prepare 
for emergencies in terms of both physical drills--with hundreds of 
participants--and table-top drills. I would then like to wrap up by 
describing what we have done to involve and educate our customers about 
how to prepare for potential emergency situations, something we believe 
is key to their safety.

New York City Transit (NYCT)
    NYCT is the largest member of the MTA family, operating over 8,000 
subway and 46,000 bus trips a day within the City of New York. NYCT's 
Office of System Safety (OSS) oversees/coordinates four emergency 
drills annually: two for the Dept. of Subways; one for the Dept. of 
Buses, and; one for the Staten Island Railway. This just happens to be 
the same number of drills that were conducted pre-9/11. Only the size 
and scope of those drills may have changed a bit.
    Depending on the type of drill, participants hail from other parts 
of the MTA transportation family (i.e. the MTA PD, the LIRR, LIBus and 
MNR); the New York City Police Department (NYPD), the New York City 
Fire Department (FDNY), the Emergency Medical Service (EMS) and the 
Office of Emergency Management (OEM).
    Drills are conducted at key locations throughout the system, 
including at support facilities such as our Coney Island Rail Yard and 
at the MTA's Transit Museum where a decommissioned station and more 
than a dozen old subway cars provide true-to-life underground 
conditions.
    After each event, OSS produces a series of ``lessons learned,'' 
``critiques'' and ``follow-ups'' that are tracked, corrected and 
incorporated into the next exercise.
    Finally, in addition to performing emergency drills, all key NYCT 
operating employees are provided ongoing formal ``eyes and ears'' 
training; fire protection and evacuation training; and Dupont Safety 
training. To date, some 45,000 employees have been through these 
courses and personnel are rotated through that training on a regular 
basis.

Long Island Rail Road (LIRR); Metro-North Railroad (MNR) & Long Island 
Bus (LIBus)
    While Federal Railroad Administration (FRA) regulations require one 
full-scale drill annually, the LIRR conducts a minimum of four major 
full-scale emergency preparedness exercises/drills annually, including 
one in New York's Pennsylvania Station, the busiest railroad station in 
the country. Likewise, Metro-North Railroad conducts a number of drills 
during the year, including one in Grand Central Terminal.
    Like those at NYCT, the carefully crafted emergency scenarios 
require emergency responders to demonstrate skills in communications, 
fire fighting, rescue, extrication, hazardous material and first aid.
    Since the LIRR operates in three of NYC's five boroughs (Manhattan, 
Brooklyn and Queens) as well as the counties of Nassau and Suffolk on 
Long Island, drills include a variety of players, most notably sister 
agency MTA LIBus, but also other members of the MTA family, including 
the MTA PD and NYCT. Other participants include the NYPD, the FDNY, NYC 
EMS as well as a host of county, village and town Police, Fire and 
Emergency Medical Services throughout Nassau and Suffolk.
    Metro-North, which serves two of NYC's five boroughs (Manhattan and 
the Bronx) as well as Westchester, Orange, Rockland, Dutchess and 
Putnam counties in New York and Fairfield and New Haven counties in 
Connecticut, conducts its own drills with a similar mix of NYC 
agencies, as well as county, village and town police and emergency 
service personnel from both New York and Connecticut.
    Railroad emergency preparedness training is conducted at a number 
of locations: The LIRR uses Penn Station, its Hillside maintenance 
facility, field sites throughout Long Island and the Nassau County Fire 
Academy. Two retired LIRR railcars at the Fire Academy also help 
provide commuter railroad-focused training to federal and state law 
enforcement agencies such as the FBI and the NYS Police.
    All major LIRR & MNR terminals, such as Flatbush/Atlantic Ave 
Terminal, Jamaica Station, Grand Central Terminal, 125th Street, New 
Haven, as well as shop/yard facilities in New York and Connecticut have 
Emergency Action Plans that factor into the exercises and drills.
    In addition to MTA-sponsored full-scale exercises, both railroads 
and LIBus participate in numerous tabletop, functional and full-scale 
emergency response and counter-terrorism exercises hosted by local 
emergency response agencies and county OEMs throughout their service 
areas.
    Beyond drills and table-top exercises, both the LIRR and MNR 
provide ongoing training sessions for their own train crews as well as 
emergency responders from the NYPD, FDNY and EMS officials in the 
counties they serve. The LIRR is also intimately involved in the Penn 
Station Emergency Response Committee and the Penn Station Security Task 
Force which are comprised of operations, law enforcement and safety 
representatives from the LIRR, Amtrak and New Jersey Transit and 
representatives from the NYPD, FDNY, NYC OEM as well as State and 
Federal agencies.
    As is the case with NYCT, both railroads? exercises include 
extensive and formal critique/debriefing sessions that may, in fact, 
result in practice tabletop scenarios that test out new changes in 
procedures and protocols.

    MTA Bridges and Tunnels
    MTA B&T operates 7 bridges and 2 tunnels within the City of New 
York. The most notable of those facilities include the nation's longest 
suspension bridge, the Verrazano Narrows Bridge, as well as the 
Brooklyn Battery Tunnel and the Queens Midtown Tunnel, two of the 
busiest in the world. All told those facilities carry approximately 
900,000 vehicles a day.
    Prior to 9-11 B&T exercises largely supported the NYPD's own 
mobilization exercises. Up to that point, one of its biggest 
preparations was drilling the regional disaster recovery plan for Y2K. 
But B&T was also part of major Special Events planning, such as for the 
NYC Marathon, which begins on the Verrazano Bridge. Those plans always 
included emergency contingencies that were practiced in pre-event 
drills.
    On 9-11, B&T's traffic and emergency response effort was 
transformed dramatically as the Towers collapsed.
    The Brooklyn Battery tunnel, itself engulfed in dust and debris, 
became the site of a major evacuation effort, as more than 500 
customers were rescued by B&T personnel. Shortly thereafter 287 
abandoned vehicles were removed from the Manhattan-bound tubes in order 
to allow emergency vehicles to pass.
    In the ensuing months, as many as 30 dump trucks an hour 
transported debris from the site. All this was handled in a very 
coordinated fashion with the NYPD and NYC OEM due to previously 
established exercise relationships.
    B&T has since conducted over twenty emergency preparedness drills. 
Many have been full scale multi-agency (MTA PD, NYPD, FDNY, MTA, OEM) 
exercises that have tested preparedness; response; inter-agency 
cooperation; perimeter security; Improvised Explosive Device (IED) 
mitigation; Hazardous Materials Spills, and; decontamination.
    B&T also participated in a state-wide exercise, conducted by the 
NYS Public Service Commission, designed to evaluate the NYS emergency 
load reduction program.
    As with its sister agencies in the MTA family, B&T is singularly 
focused on providing its employees with both formal and informal 
training opportunities that provide a safe and secure working 
environment. In that vein, B&T has also been fully engaged in Dupont 
Safety training since 1996.

Other MTA-Wide Emergency Preparedness Activities
    Certainly, as you've heard from me today, we're committed to 
aggressively training and drilling our employees for potential 
emergencies. But over the past three and a half years we've also 
focused on making sure that our customers are aware of how they should 
respond in certain situations.
    Through the creation of the widely recognized ``If You See 
Something, Say Something'' customer information campaign, we've 
informed our customers about being vigilant and in the process have 
enlisted their help by giving them an outlet to report suspicious 
activities: 1-888-NYC-SAFE. Since 2002, we?ve produced print ads, 
10,000 posters a year and are in the process of producing a See 
Something, Say Something radio ad. Public response has been extremely 
positive and we have shared our materials with dozens of transit 
systems and municipalities around the country and the globe.
    Over the last year--and in direct response to the lessons learned 
from the Madrid bombings--we both customized our ads to focus on 
packages left in transit vehicles and produced Customer Train 
Evacuation Brochures and internet-based evacuation videos that show how 
to properly evacuate subway and commuter railroad cars in an emergency. 
Over 6,000 printed copies of this information were posted on our subway 
and rail cars and we made both the printed material and videos 
available to our customers on our website, www.mta.info. In addition, 
we've made hundreds of these videos available to local police 
departments, community groups and the general public since February.
    This year as a supplement to the more formalized training of our 
operating personnel, we also produced 65,000 Employee Safety Guides for 
all our employees that tells them what to look for and how to react in 
emergencies.
    There is no question about the MTA's commitment--philosophically 
and organizationally--to doing whatever we can to be prepared for 
emergency situations, be they large or small. We believe that the 
current aggressive schedule of emergency drills that we conduct each 
year helps in the effort to protect our customers and our employees and 
to give them the peace of mind necessary to continue to go about their 
daily routines.
    Thank you and I look forward to any questions you may have.

    Mr. King. Thank you.
    Director Lennon?

    STATEMENT OF PAUL LENNON, DIRECTOR OF INTELLIGENCE AND 
    EMERGENCY, PREPAREDNESS MANAGEMENT, LOS ANGELES COUNTY 
                 METROPOLITAN TRANSIT AUTHORITY

    Mr. Lennon. Thank you, Chairman King and Congressman 
Pascrell and members of the subcommittee for providing the Los 
Angeles County Metropolitan Transportation Authority an 
opportunity to discuss the key role that training plays in 
effectively responding to a terrorist attack on mass transit 
property.
    On January 26, 2005, a tragic rail incident occurred in the 
Los Angeles area. The accident was the deadliest passenger rail 
incident in the United States since 1999, killing 11 and 
injuring over 180 individuals. That accident, it would be later 
be found, was caused by a deranged individual and not a 
terrorist, but its effects were just as devastating as the 
attacks the rocked London on July 7, 2005.
    The response to the January 26th train disaster by the City 
of Los Angeles, my agency, Metro, the Los Angeles County 
Sheriff's Department and the Los Angeles Police Department and 
Fire Department units, the City of Glendale's first responders 
and numerous other emergency first-responders was immediate, 
positive and overwhelming. Within 5 minutes the first triage 
unit was set up and a host of other support services were put 
into place only moments later.
    The reason I cite the January 26th rail accident is simple: 
The tragic event provides a vivid illustration, which is fresh 
in my mind and those of my fellow transit security colleagues, 
that training to respond to a terrorist attack is vital. In 
fact, to ensure a rapid and effective response in the event of 
a terrorist attack on one of our rail cars, our buses or one of 
our hundreds of stations or facilities in Los Angeles County, 
training is not merely an option, it is mandatory.
    We trained at my agency to make mistakes, so we do not make 
mistakes when our exercises go from the comfort of a tabletop 
drill to a real world terrorist attack.
    The key elements of our agency's program focuses on 
preparing to respond and preparing to prevent. First, we are 
focused on enhancing our interaction and coordination with our 
security partners at the Los Angeles County Sheriff's 
Department and with all other law enforcement and first 
responder agencies with jurisdiction within Los Angeles County.
    We can have the largest security force with the most modern 
equipment, but if they are not seamlessly communicating, 
coordinating and controlling our security and first responder 
assets, then we are not exercising command over any given 
threat. In point of fact, the lack of such coordination wd not 
do proper justice to the talent and technologies that are 
brought to play under such scenarios.
    With respect to my comment that we prepare to respond, it 
is for this reason that the LACMTA has a robust training 
program that conducts major interagency threat-focused security 
exercises. Our training regimen includes both tabletop and very 
realistic, on-ground simulations and exercises.
    The ``real-world'' on-ground simulations we conduct are 
tests of each agency's first-response personnel and their 
training for their adequacy and ability to interface with other 
peer groups. The findings and result of these exercises are 
shared in the post-exercise critiques and debriefings, 
involving all the agencies that participated. These critiques, 
in turn, provide valuable lessons learned which are used to 
enhance the training of personnel of the agencies involved and 
to identify new needs, technologies and equipment that would be 
of benefit to agencies in dealing with actual threats.
    In terms of preparing to prevent a terrorist incident, we 
are very cognizant of the critical role our employees play. 
They are our eyes, ears and voice in our nation's war against 
terrorism. We share the goals and tenets of the ``System 
Security Awareness for Transit Employees'' training course that 
was developed by the Federal Transit Administration and the 
National Transit Institute at Rutgers University. That 
excellent course, crafted in 2002, provided a very professional 
program to provide training and relevant materials to transit 
operators and other front-line employees.
    To effectively educate our employees at the LACMTA, we have 
also borrowed the best practices from some of the top transit 
systems in North America. New York Metropolitan Transportation 
Authority's ``See Something, Say Something'' Program is but one 
example. The Washington Metropolitan Transportation Authority's 
commitment to raise public and employee awareness of possible 
terrorist threats is yet another fine example of a program with 
an appropriate focus.
    The LACMTA has provided training for over 9,000 of our 
employees in situational awareness. This encompasses the who, 
what, why, where and how of dealing with unattended packages 
and suspicious behaviors.
    Our agency has also involved our law enforcement and 
security teams in a highly visible program of public engagement 
in which our deputy sheriffs move in, and through, our 
stations, trains and buses, making our customers aware of their 
presence through personal contact.
    We recognize that to conduct such comprehensive employee 
training and public awareness programs entails major costs, 
both in terms of labor and materials. Yet, the LACMTA views 
these programs as a proper investment in its employees as well 
as a major hardening effort by our agency against possible 
terrorist threats.
    When the attacks on London's mass transit system occurred 
on the 7th and 21st of this month, our previous and ongoing 
training regimen gave us, and will continue to give us, the 
capability to initiate an immediate and forceful response. That 
response is in place today on our expansive rail and bus 
networks even as I share this testimony with you.
    Protecting a service area that spans 1,433 square miles is 
no simple task for the employees of the LACMTA. The fact that 
they have the training and know-how in responding to a possible 
terrorist incident gives them the confidence to assure the 
general public that all possible measures are being undertaken 
to protect their welfare.
    Thank you for providing me the opportunity to share this 
information on behalf of the LACMTA with members of this 
distinguished subcommittee.
    [The statement of Mr. Lennon follows:]

                  Prepared Statement of Paul J. Lennon

    Thank you Chairman King, Congressman Pascrell and Members of 
thesubcommittee for providing the Los Angeles County Metropolitan 
Transportation Authority (LACMTA) an opportunity to discuss the key 
role training playsin effectively responding to a terrorist attack on a 
mass transit property.
    On January 26, 2005 a tragic rail incident occurred in the Los 
Angeles area. The accident was the deadliest passenger rail incident in 
the United States since 1999, killing 11 and injuring over 180 
individuals. The accident, it would be later be found, was caused by a 
deranged individual and not a terrorist--but its effects were just as 
devastating as the attacks the rocked London on July 7, 2005.
    The response to the January 26th train disaster by the City of Los 
Angeles, my agency, the City of Glendale's first responders and 
numerous other emergency first-responders was immediate, positive and 
overwhelming. Within five minutes the first triage unit was set up and 
a host of other support services were put into place only moments 
later.
    The reason I cite the January 26th rail accident is simple. That 
tragic event provides a vivid illustration, which is fresh in my mind 
and those of my fellow transit security colleagues, that training to 
respond to a terrorist attack is vital. In fact, to ensure a rapid and 
effective response in the event of a terrorist attack on one of our 
rail cars, our buses or one of our hundreds of stations or facilities 
in Los Angeles County, training is not merely an option, it is 
mandatory.
    We train at my agency to make mistakes, so we do not make mistakes 
when our exercises go from the comfort of a table-top drill to a real 
world terrorist attack.
    Today I would like to share with members of this subcommittee 
several of the training techniques that the LACMTA has successfully 
used to prepare ourselves for a terrorist attack, like that which 
struck London earlier this month or earlier attacks on mass transit 
properties in Moscow and Madrid.
    The key part of our agency's training program focuses on preparing 
to respond and preparing to prevent.
    First, we are focused on enhancing our interaction and coordination 
with our security partners at the Los Angeles County Sheriff's 
Department and with all other law enforcement and first responder 
agencies with jurisdiction within Los Angeles County. We can have the 
largest security force, with the most modern equipment, but if they are 
not seamlessly communicating, coordinating and controlling our security 
and first responder assets, then we are not exercising command over any 
given threat.
    In point of fact, the lack of such coordination does not do proper 
justice to the talent and technologies that are brought to play under 
such scenarios.
    With respect to my comment that we prepare to respond, it is for 
this reason that the LACMTA has a robust training program that conducts 
major interagency threat-focused security exercises. Our training 
regimen includes both table-top and very realistic, on-ground, 
simulations and exercises.
    These exercises involve, in some cases, as many as thirty agencies 
that are focused on multiple threats. These exercises anticipate 
responses to individual or groups of terrorists, weapons of mass 
destruction, explosives and combinations thereof. Such exercises are 
always played out initially with a table-top exercise, where all the 
potential agency players and representatives are given insight into not 
only the threat faced, but also the role they will be expected to play.
    The ``real-world'' on-ground simulations we conduct are tests of 
each agency's first-response personnel and their training for their 
adequacy and ability to interface with other peer groups. The findings 
and result of these exercises are shared in the post-exercise critiques 
and de-briefings, involving all the agencies that participated. These 
critiques in turn provide valuable lessons learned which are used to 
enhance the training of personnel of the agencies involved and to 
identify new needs, technologies and equipment that would be of benefit 
to agencies in dealing with actual threats.
    In terms of preparing to prevent a terrorist incident, we are very 
cognizant of the critical role our employees play. They are our ?eyes, 
ears and voice? in our nation's war against terrorism.
    We share the goals of the ``System Security Awareness for Transit 
Employees'' training course that was developed by the Federal Transit 
Administration and the National Transit Institute at Rutgers 
University. That excellent course, crafted in 2002, provided a very 
professional program to provide training and relevant materials to 
transit operators and other front-line employees.
    To effectively educate our employees at the LACMTA we have also 
borrowed the best practices from some of the top transit systems in 
North America. New York Metropolitan Transportation Authority's ``See 
Something?. . .Say Something!'' program is but one example. The 
Washington Metropolitan Transportation Authority's commitment to raise 
public and employee awareness of possible terrorist threats is yet 
another fine example of a program with an appropriate focus.
    The LACMTA has provided training for over 9,000 of our employee in 
situational awareness. This encompasses the who's, what's, why's, 
where's and how's of dealing with unattended packages and suspicious 
behavior.
    Our agency has also involved our law enforcement and security teams 
in a highly visible program of public engagement in which our deputy 
sheriffs move in, and through, our stations, trains and buses, making 
our customers aware of their presence.
    We recognize that to conduct such comprehensive employee training 
and public awareness programs entails major costs, both in terms of 
labor and materials. Yet, the LACMTA views these programs as a proper 
investment in its employees as well as a major ``hardening'' effort by 
our agency against possible terrorist threats.
    If one mind-set permeates the LACMTA's security posture it is a 
pro-active attitude to properly train our security personnel, our 
front-line employees and the general public.
    When the attacks on London's mass transit systems occurred on the 
7th and 21st of this month our previous and ongoing rigorous training 
regimen gave us and will continue to give us the capability to initiate 
an immediate and forceful response. That response is in place today on 
our expansive rail and bus network, even as I share this testimony with 
you.
    Protecting a service area the spans 1,433 square miles is no simple 
task for the employees of the LACMTA. The fact that they have the 
training and know-how in responding to a possible terrorist incident 
gives them the confidence to assure the general public that all 
possible measures are being undertaken to protect their welfare.
    Thank you for providing me the opportunity to share this 
information, on behalf of the LACMTA, with members of this 
distinguished subcommittee.

    Mr. King. Thank you, Mr. Lennon. I appreciate your 
testimony.
    Now, Mr. Kozub.

 STATEMENT OF CHRISTOPHER KOZUB, ASSOCIATE DIRECTOR, NATIONAL 
                       TRANSIT INSTITUTE

    Mr. Kozub. Good morning, Mr. Chairman and members of the 
subcommittee. I would like to thank you for the opportunity to 
participate in this hearing and share some thoughts and 
insights.
    I am Christopher Kozub, the associate director at the 
National Transit Institute for the Workplace Safety and 
Security Program. As the chairman said, the testimonies will be 
entered, so instead of going laboriously through mine word for 
word, I am simply going to highlight a few points that I think 
complement some of the other testimonies you may have heard 
today.
    As Deputy Administrator Jamison pointed out, much of 
security, while technology is a key component of it, is 
operations based. There are three things that we, as a resource 
to the FTA and to other modal agencies as well as system 
agencies within DHS, have clearly recognized.
    Employee training is one of the center points of any good 
system security program. Employees need to be trained, as some 
of the other panelists have observed, to participate in a 
number of these systemwide programs. To encourage passengers 
and customers to report things that they see, whether it is an 
unattended package or suspicious behavior, requires them to 
report that information to an employee. Employees must be 
trained how to assess and analyze that information in order to 
effectively forward it on through the proper channels into law 
enforcement.
    Employees then themselves need to be trained on how to 
observe and properly report information that is suspicious in 
nature so that it can be followed up and investigated upon.
    And, ultimately, if prevention measures do not work, they 
need to be trained on how to effectively handle an incident, 
respond to it appropriately, as they are truly, while not 
trained to the degree of a law enforcement or fire and rescue 
personnel, they are the first person on the scene representing 
that agency and must take actions within the first few seconds 
and minutes to help shape and model the outcome of that 
incident so that when trained law enforcement and fire people 
do show up that the incident can be handled in a much more 
expeditious and safe fashion.
    We at NTI have been working with the FTA closely these past 
several years since 9/11 to put forth a number of training 
programs. Chief Morange from New York mentioned a pamphlet that 
they hand out. We, working with the FTA, have provided the 
transit industry close to a half million security pamphlets 
targeted at employee awareness and information of what is 
suspicious, what should be reported and what should be followed 
up on.
    We also have facilitated, either directly or through 
agencies such as those represented here today, the training of 
employees. We have reached through those training efforts 
73,000 employees. While that number is something to make note 
of, the unfortunate reality is it only represents 20 percent of 
the total workforce of frontline employees within the transit 
industry. We have a lot more training to do, the agencies have 
a lot more training to do to effectively reach the majority if 
not all of the workforce out there putting service on the 
street.
    We have also worked outside of our direct relationship with 
the FTA with other modal agencies and other agencies within 
DHS. Working initially under the direction of the FTA, we 
produced a training program targeted at DOT, or Transportation 
employees. This effectively has helped reach close to 20,000 
employees who are out there working on the highways and 
bridges. After all, transit, 60 percent of it, is being 
delivered in a bus, operates on these very roads, bridges and 
tunnels.
    Another effort that we have undertaken, working with 
initially with the Washington State ferry system that is the 
largest system in the country but then eventually other systems 
and the Coast Guard, we have modified our programs to reach to 
the ferry and similar maritime sectors to effectively train 
over 1,000 people, not including the entire workforce of 
Washington State ferries in system security awareness.
    Lastly, we have worked closely with Amtrak, several freight 
railroads and most of all TSA within DHS who has funded this 
effort to produce a program that will deliver system security 
awareness to freight and passenger railroads of the country. 
Again, many of our commuter railroads operate, are operated by 
or on the same infrastructure that is operated and controlled 
by freight railroads and/or Amtrak. To this date, Amtrak has 
used this program to reach over half of their 20,000 employees.
    So along with what we have done in the transit traditional 
sector, those sectors such as highways and freight and Amtrak, 
which are all part of our transit and transportation system, we 
have reached effectively over 100,000 employees simply with the 
facilitated training effort that we have put forth.
    What we have noticed, however, and while drills are being 
conducted through federally funded efforts and systems such as 
those represented on the panel here with me today, have done 
very good local efforts to coordinate their training and their 
response plans. There is no national effort to establish 
competencies or standards for an emergency responder to respond 
to a transit incident.
    We, for many decades, have had national standards, codes 
and even regulations promulgated by such agencies, such as the 
FAA on what are the minimum competencies and training standards 
to respond to an aviation incident. We still do not have any 
national effort or standard put forth to do that on the transit 
or surface transportation side.
    In the events that happened this past month, the 
International Association of Fire Chiefs referenced the 
document put out by the U.S. Fire Administration, a study 
course entitled, ``Emergency Response to Terrorist Incident.'' 
Unfortunately, when we reviewed that course, there were only 
three very insignificant references to transit in the entire 
course.
    I use that example because I think it clearly illustrates 
the lack of national recognition to the fact that emergency 
responders, unless partaking in the programs that are done at 
the local effort, do not have the training resources and are 
not aware of the competencies that need to be there on how to 
handle what is potentially some of the biggest mass casualty 
incidents that they may encounter in their entire career.
    In closing, I would just like to make a simple comment. One 
of the words that are often used is system security. System 
security in transit is very critical, because system security 
needs to look at the entire system. What Madrid taught us is 
that simple security efforts such as law enforcement around 
major terminals is not enough. It needs to be every outlying 
station, every park-and-ride facility, every point of entry on 
a system needs to have equal protection if the system is going 
to be protected.
    Similarly, there has been much discussion about cameras and 
other technology. While all technology should be reviewed, 
should be researched for its application into this sector and 
into this industry, true security will happen in a systemic 
fashion; meaning, training of employees, alertness and 
diligence of passengers, good, solid law enforcement efforts 
within the transit agency and the community, coordinated 
efforts with other community responses, as well as the 
application and implementation of technology.
    I would like to thank you again for the opportunity to 
participate here and welcome any questions.
    [The statement of Mr. Kozub follows:]

               Prepared Statement of Christopher A. Kozub

    Good morning, Mr. Chairman and Members of the Subcommittee, thank 
you for the opportunity to speak with you today and share some insights 
on the security of the United States' transit systems, and specifically 
the importance of emergency preparedness and response training for 
transit employees and emergency responders.
    My name is Christopher Kozub, and I am the Associate Director for 
Workplace Safety and Security at the National Transit Institute (NTI) 
at Rutgers, The State University of New Jersey. Although the recent, 
tragic events in London have once again brought the issue of transit 
system security to the forefront of media headlines and American minds, 
NTI has served the safety and security training needs of transit 
agencies and their employees for a number of years. Under the direction 
of the Federal Transit Administration (FTA) and in partnership with 
transit system management and labor organizations, NTI has been 
steadfastly focused on developing and delivering security training 
materials since the attacks of September 11th. It is NTI's overall 
mission to provide training and education in support of public 
transportation and quality of life in the United States. When this 
quality of life is threatened, we must reevaluate our actions and 
precautions, not only in awareness and prevention measures, but in our 
reactions and response to terrorist threats and incidents.
    Collectively, the nation's transit systems are responsible for 
providing a reliable, efficient, and rapid commute for 14 million 
passengers daily. Their biggest responsibility and priority however, 
must always be the safety and security of those passengers and the 
employees who are delivering this service. When transit's 
infrastructure and operations are threatened or attacked, as it was 
twice in London this month, the desired effect to disrupt commerce, 
instill fear, and bring a bustling, thriving region to a grinding halt, 
is achieved. Unfortunately, the London incidents are merely the latest 
in a series of attacks on the world's transit systems.
        <bullet> On March 20, 1995, Tokyo subway riders, at the height 
        of the morning rush hour, were targeted in a deadly nerve gas 
        attack by a doomsday cult, killing a dozen people, including 
        two frontline employees and injuring approximately 5,000 more. 
        The first indication that anything was wrong was when 
        passengers began to experience watering eyes and difficulty 
        breathing--classic symptoms of exposure to the tasteless, 
        colorless, and odorless Sarin agent that was used in the 
        attack. Unfortunately, the two employees were killed when 
        trying to remove the agent dispersal device. Neither one had 
        received any training related to security awareness or incident 
        response.
        <bullet> On October 17, 1995, eight people died and more than 
        200 were injured when a terrorist detonated a bomb on the Paris 
        Metro. In the investigation police found the remains of a six 
        pound cooking gas canister that had been filled with explosives 
        and screws--to serve as shrapnel.
        <bullet> On February 6, 2004, an explosion in a Moscow Metro 
        rail car killed 39 people and wounded 129 others, again during 
        the morning rush hour. As with the most recent London bombings, 
        the explosive device was thought to have been stored in a 
        backpack or briefcase.
        <bullet> On March 11, 2004, a coordinated series of ten 
        explosions aboard four packed commuter trains in Madrid killed 
        191 people and injured over 1,500 others. The attacks were 
        carried out by terrorists boarding the system at outlying 
        stations, deploying their device laden packages on the trains, 
        and exiting before the predetermined time of detonation. This 
        incident clearly illustrated that in order to secure a rail or 
        transit system, security measures must be implemented and 
        maintained system-wide.
        <bullet> On July 7, 2005, the London Transit system was 
        attacked by four suicide bombers. Three of the devices were 
        detonated on separate trains deep in the tubes of London's 
        Underground. The fourth was detonated over 30 minutes later on 
        a double-decker bus. In total 56 people, including the four 
        attackers, were killed and 700 others were injured.
        <bullet> Two weeks later on July 21, 2005, another four attacks 
        were attempted on London's transit system in which only one 
        person was injured, but the system, and to a great extent 
        London, were crippled for a considerable amount of time.
    This list obviously, does not include all of the hundreds of lesser 
bombings and attacks that have occurred against rail and bus transit 
systems throughout the world over the past ten years. While the 
following table shows the total number of surface transportation 
terrorist attacks for each year since 1995, including injuries and 
fatalities, it should be noted that the ratio of injuries and 
fatalities per incident is significantly higher for transportation 
targets than most other terrorist targets combined. This fact continues 
to make surface transportation systems, particularly transit 
operations, attractive targets for terrorist attacks.
    Terrorist attacks against surface transportation targets:

----------------------------------------------------------------------------------------------------------------
                1995      1996     1997     1998     1999     2000     2001     2002    2003    2004     Total
----------------------------------------------------------------------------------------------------------------
 Incidents         12   10       7        106      49       73       104      159      64      96           680
  Injuries      5,313   256      156      553      231      355      695      846      580     1041      10,026
Fatalities         67   69       21       232      35       36       328      200      168     416        1,572
----------------------------------------------------------------------------------------------------------------
Source: MIPT Terrorism Knowledge Base


THE IMPORTANCE OF HUMAN CAPITAL
    Ironically, in an industry such as transit, which is seemingly 
burgeoning with technological ideas and investments, it is interesting 
to see how many reports, interviews, and testimonies regarding the 
referenced events, validate the limitations of employing currently-
available security technology within the transit operating environment. 
Additionally, post-incident information often reveals the critical 
importance of the frontline employee in minimizing the impact of an 
incident. This was clearly proven on September 11th when PATH system 
employees quickly loaded and dispatched trains from the World Trade 
Center station.
    While we should not abandon research and deployment of new 
technologies, we need to recognize what has been proven to work here 
and now: employee training.
        <bullet> Encouraging passengers to report suspicious activity 
        often relies on employees receiving and forwarding that 
        information. This requires employees to be trained on how to 
        assess this information and pass it forward through proper 
        channels.
        <bullet> Preventing attacks relies on an alert and diligent 
        workforce that can identify and react properly to suspicious 
        activity and threats.
        <bullet> The outcome of an effective emergency response is 
        often contingent on what frontline employees do or don't do in 
        the first few minutes of an incident.
    The FTA has clearly recognized this and has directed NTI and other 
resources to develop a number of courses and materials to better 
prepare employees for these responsibilities. This training focuses on 
improving their ability to observe, recognize, and report suspicious 
objects and activities, and being more cognizant of pre-attack 
activities. Heightened awareness of their on-the-job surroundings, and 
a familiarity with the warning signs of potential threats, will lead to 
increased security and safety on our nation's transit systems.
    These materials have been developed through partnerships that bring 
transit system management, safety and security experts, organized 
labor, trade associations, and the FTA together to ensure that 
everyone's concerns and issues are being addressed. The FTA and NTI 
have also considered the various methods utilized by each transit 
system to train their employees and have produced a range of materials 
in a variety of formats. This approach has lead to the development of 
materials that can be used for instructor-lead training and 
interactive, computer-based training. These efforts are complimented by 
the production and distribution of videos and reference materials.
    A number of transit systems have also recognized this and are 
utilizing NTI's materials to provide employee training. Since September 
11, 2001, almost 73,000 transit employees at more than 530 transit 
agencies have been trained. This includes 51,000 employees who work for 
the top 30 systems which are located in the most densely populated 
regions of the country. Agencies such as Massachusetts Bay 
Transportation Authority (MBTA), Northeast Illinois Regional Commuter 
Railroad Corporation (METRA), San Francisco Municipal Railway, Denver 
Regional Transit District and New Jersey Transit have made 
comprehensive efforts to train the majority of their frontline 
employees.
    Unfortunately the number 73,000 only represents approximately 
twenty percent of the transit industry's total workforce. Consequently, 
a large number of frontline transit employees in this country still 
lack proper training and preparedness for preventing and/or responding 
to incidents. This is largely due, according to many transit systems, 
to a lack of funding. While the materials from NTI are provided to 
transit agencies free-of-charge, and a portion of the training is 
actually conducted by NTI instructors, also free-of charge, systems 
still need to pay employees to keep buses and trains moving while other 
employees participate in training. Unlike other sectors, ``in-service 
training'' in transit and other transportation modes is incongruent 
with keeping service on the street.
    This training must also be conducted on an ongoing cycle. An 
employee can not be expected to effectively retain and apply 
information and skills which they are only exposed to once. There must 
be a continuing process of frequent informational reminders and 
periodic refresher training to keep the material at the forefront of 
their thinking and thus carried out in their actions.
    As such, while funding security technology research and deployment 
such as smart devices, chemical sensors, and cameras is important, a 
much greater emphasis and value needs to be placed on employee training 
and preparedness in order to effectively secure and safeguard the lives 
of transit passengers and employees.

NTI'S CONTINUING AND DIVERSIFIED ROLE IN SECURITY TRAINING
    While continuing to focus on our primary commitment to the FTA and 
the safety and security of transit industry employees, NTI has enhanced 
these efforts by collaborating on additional projects that have built 
upon these experiences and effectively served a broader range of 
transportation employees.
        <bullet> With an average of 60% of the nation's daily transit 
        trips occurring on buses, NTI, under the direction of the FTA, 
        developed a modified version of the system security course to 
        address Department of Transportation (DOT) personnel. Currently 
        1,744 DOT employees from 15 different agencies have received 
        this training. These deliveries, as well as the development of 
        an interactive CD-ROM version of the DOT course, have been 
        funded by the National Cooperative Highway Research Program of 
        the Transportation Research Board, within the National Academy 
        of Sciences. Additionally, 9,800; 7,435; 1,450; and 450 
        employees have been trained internally by the Texas, Washington 
        State, New Jersey and North Carolina DOTs, respectively.
        <bullet> Under heightened security concerns, the FTA and NTI 
        assisted the Washington State Ferry (WSF) system in an effort 
        to produce a comprehensive system security training program 
        that included instructor-lead course material, a video, and an 
        employee pocket guide. WSF then used these materials to train 
        all of their vessel and terminal employees. Based on this 
        project, NTI developed a training course for the rest of the 
        ferry operations in the country. In compliance with the 
        Maritime Transportation Security Act of 2002 (MTSA) and 
        specific portions of United States Coast Guard regulations 
        currently in force for maritime security of vessels and 
        maritime security of facilities, NTI has, to date, provided 
        training in system security awareness to approximately 1,000 
        passenger vessel employees.
        <bullet> Further adaptation of the NTI system security course 
        occurred after being approached by Amtrak. With a need to train 
        their 20,000 employees across the country in security 
        awareness, Amtrak wisely decided to adopt the same program that 
        was being used by a number of commuter rail systems throughout 
        the country. With Amtrak and many of the commuter rail systems 
        sharing much of the same infrastructure with freight railroads, 
        the project grew to include the Federal Railroad Administration 
        (FRA), the Association of American Railroads, and the American 
        Short Line and Regional Railroad Association. The 
        Transportation Security Administration (TSA) has funded this 
        effort to produce a computer-based, security awareness training 
        program that will provide a consistent baseline of security 
        training for all freight and passenger rail employees 
        throughout the country. The passenger component of this project 
        was completed in January 2005 and Amtrak has used the material 
        to train approximately 10,000 of their employees to date. The 
        freight component is under final development and the completed 
        project will be released in the near future.
    These activities clearly illustrate that through prudent leadership 
by agencies such as the FTA and the Department of Homeland Security 
(DHS), the Federal Government can produce quality and very cost-
effective programs that will have near-term, positive effects on the 
safety and security of many modes of surface transportation. This is of 
particular significance given the continuing move toward inter-modal 
networks.
    Currently, NTI, the FTA and agencies within DHS are working on 
several new programs to continue this process:
        <bullet> A course is being developed to better train and 
        prepare transit system operations control center personnel in 
        assessing and responding to reports of chemical, biological, 
        and explosive attacks within rail system tunnels. The course 
        will compliment the existing FTA guidance document ``Guidelines 
        for Managing Suspected Chemical and Biological Agent Incidents 
        in Rail Tunnel Systems.'' Argonne National Labs, a leading 
        source of expertise on chemical and biological terrorism and 
        author of the FTA guidance document, is working with NTI to 
        develop and deliver the new course. Initial deliveries are 
        scheduled to begin in August 2005.
        <bullet> The FTA and NTI are also in the process of developing 
        a series of training programs for transit employees on 
        Incident/Emergency Management. These courses and corresponding 
        materials will incorporate the new, nationally adopted NIMS 
        (National Incident Management System) model so that transit 
        employees, along with their colleagues in emergency response, 
        will be able to effectively work together during an incident. 
        The first of these courses will focus on the concept of 
        passenger management during an incident. This has been 
        identified as a challenge and an issue at every transit system 
        attack and accident. Employees who are responsible for the 
        safety and security of passengers during an incident need a 
        clear understanding of the various behavioral characteristics 
        that they'll confront in an emergency so that they can most 
        effectively direct them to safety.
        <bullet> The FTA, TSA, and the Office of Domestic Preparedness 
        (ODP) within the Department of Homeland Security have partnered 
        with NTI to revise and deliver the FTA ``Connecting 
        Communities'' forums. These forums were originally delivered in 
        17 cities to bring together transit systems and emergency 
        responders. The revised program will incorporate the NIMS 
        concept and will focus on a more substantive and facilitated 
        discussion between the participants. The goal of these 12 
        workshops is to strengthen relationships between transit 
        representatives and emergency response officers and develop an 
        outline for a transit incident response plan. Among other 
        aspects, this plan will include resource identification and 
        availability, localized model response plans, and a proposed 
        schedule for inter-agency, table-top and functional training 
        exercises.

PREPARING EMERGENCY RESPONDERS FOR TRANSIT INCIDENTS
    While programs such as the ``Connecting Communities'' forums are 
important steps in improving interagency planning and response, they 
are merely the beginning of a long-overdue effort within transit and 
more so, the emergency response sector, to improve training and 
preparedness.
    Some agencies such as those represented by my distinguished 
colleagues have made great strides in developing programs with their 
local emergency services. Washington Area Metropolitan Transit 
Administration (WMATA) has created a life-safety center and training 
program to better prepare local, state and federal responders for 
incidents within the WMATA system. The Los Angeles County Metropolitan 
Transit Administration (LACMTA) has worked with the LA County Sheriff's 
office to train 200 of their officers in transit security and incident 
management concepts. A great many other agencies have and continue to 
conduct training drills to test the interoperability of their internal 
and external responders, resources, and procedures.
    Quite often, response to a passenger rail or rail transit incident 
has been done from a ``seat-of-the-pants'' perspective, not through the 
application of skills and knowledge obtained through a comprehensive 
training program. Although some training efforts are being carried out 
at the local level, there has yet to be a national recognition of the 
need to identify minimum competencies and develop baseline training 
standards for this type of response.
    As opposed to many of the facilities and operations that police and 
fire departments interact with, transit systems possess unique 
characteristics that may often contradict traditional response 
measures.
        <bullet> The presence of potentially live third-rail or 
        overhead catenary, poses a real and present danger to initial 
        responders.
        <bullet> Alternative fuel and hybrid buses present response 
        challenges and safety hazards to responders
        <bullet> Initial tactics for transit incidents may need to 
        consider maintaining system operation so that people can be 
        moved quickly away from the scene and then evacuated or the 
        ``shelter in place'' concept as opposed to immediate mass 
        evacuation.
        <bullet> The large number of potential victims and ambulatory 
        passengers at the scene may present the most significant 
        challenge of the incident. This could be further compounded by 
        the location of the incident: either in a tunnel or on a 
        bridge.
    Unfortunately, these command decisions can only be made by police 
and fire officers who have a clear understanding of a transit systems 
infrastructure and operation.
    Aviation incidents, which also possess unique challenges and 
hazards to responders are often mass fatality, not mass casualty 
incidents, and therefore are quickly categorized as a recovery, not a 
rescue operation. Response measures for aviation incidents however have 
been addressed in a variety of national regulations, promulgated by the 
Federal Aviation Administration and standards put forth by the National 
Fire Protection Administration. In comparison, transit incidents which, 
as statistically proven, can result in hundreds if not thousands of 
injuries, therefore demanding a faster, more coordinated rescue effort, 
have rarely been addressed through any national training effort.
    Following the London attacks of July 7th, the International 
Association of Fire Chiefs (IAFC) issued a press release urging fire 
chiefs to review their response plans for transit emergencies. In the 
release the IAFC referenced the Emergency Response to Terrorism Self-
Study Course, produced by the United States Fire Administration, as a 
noteworthy resource. Unfortunately, the current version of this course 
has only three, rather insignificant references to transit in the 
entire text, once again illustrating the lack of inclusion of transit 
in emergency preparedness training at the national level.
    While, as DHS Secretary Chertoff observed, response to transit 
incidents is a local and state responsibility--because of the immediate 
need to triage and treat victims--the need to nationalize an effort to 
identify competencies and create standards for training still exists. 
Similar to what the FTA has done through NTI and other resources to 
serve the transit industry, a Federal agency, or agencies, needs to 
take on the responsibility to move this effort forward. Only when the 
dialogue on emergency responder preparedness and training for transit 
incidents is brought to the national level, will it become a priority 
for all transit systems and their respective response agencies.
    In closing, the efforts put forth by the FTA have been some of the 
most effective and successful security prevention and incident response 
programs in any sector. These efforts need to continue not only in 
terms of developing new programs, but more importantly in the expanded 
delivery and implementation of existing materials and courses. Clearly, 
including transit employees as a key component of a system security 
program is a prudent measure that will present an invaluable return for 
a relatively minimal investment in initial and ongoing training. And 
while there have been, and continue to be, many effective, coordinated 
programs in emergency preparedness conducted at the local level, we as 
a nation, to paraphrase Robert Frost, have promises to keep and miles 
to go before we sleep.
    I would like to thank the Subcommittee for the opportunity to share 
my insights and provide information on the current state of transit 
incident preparedness. I look forward to continuing to work with you 
and my colleagues to improve the safety and security of transit 
passengers and employees and the effectiveness of emergency responders 
in managing transit incidents.crule

    Mr. King. Thank you for your testimony, Mr. Kozub.
    I will address my questions in the interest of time to the 
three law enforcement witnesses, and it is a four-part 
question. One is, in view of the suicide incidents in London 
and the shoot-to-kill policy, what steps, if any, are you 
taking in training your officers regarding suicide bombers?
    Number two, if you can comment on the policy of random 
inspections which has been carried out in a number of 
localities, including the NYPD.
    Thirdly, a point I mentioned before to encourage retired 
police officers who are well trained and are armed to travel 
mass transit by giving them passes to work back and forth. Many 
of these men and women are in their 40s and 50s and are well 
equipped and well trained.
    And, finally, if you can turn it around, if you could get 
anything you needed from the federal government so that you 
could guarantee the money was being well spent, what would you 
be asking for the federal government to give you which it is 
not doing now?
    We will start with Chief Hanson.
    Chief Hanson. Well, in regards to suicide bombers, I think 
we have been working with local law enforcement, particularly 
the Capitol Police. In fact, we are having a training session 
today. I think the Capitol Police went over to Israel and 
really looked at some of the dynamics over there. We had worked 
with them earlier, particularly when we started bringing long 
guns into our system to develop procedures and we are 
reinforcing that now in light of London.
    Mr. Dicks. What is a long gun?
    Chief Hanson. A long gun is a weapon with a longer gun as 
opposed to hand gun. In our environment, there are MP5s, which 
could be qualified as a machine gun. A shotgun is a long gun, 
but it is?am I answering the question?
    So we do have procedures and we are reinforcing those 
procedures today with local law enforcement colleagues.
    In regard to random searches, we are going to New York on 
Thursday. We had examined and discussed this internally 
ourselves. We will be very interested in seeing how it is done 
in New York and seeing the application for WMATA.
    What we do is we have a program here, we are local law 
enforcement. The police officers and sheriffs in the region 
that represent WMATA. There are six jurisdictions, Maryland, 
Virginia and the District of Columbia. The law enforcement 
officers in those regions are allowed to ride when in uniform 
and in casual clothes, and that applies to sheriffs too. So 
that really kind of leverages our numbers. We do not do the 
retired program, they are active police officers that are 
allowed to use our system.
    On any given day, the Metropolitan Police have 300 people 
going to court, and the majority of those people are encouraged 
to ride the rails. We do training with local law enforcement, 
so they will well versed in the intricacies and challenges of 
operating in a transit environment.
    And then in regards to what would we want, I think it is a 
variety of different things. Certainly, more funding for 
training, for equipment. I would like to see more done in 
technology.
    Mr. King. Mr. Morange?
    Chief Morange. As far as suicide bombers, we instruct our 
officers, we also put out posters on what to look for, how 
people act nervous, what type of clothing they may be wearing, 
if someone's wearing heavy clothing in the warm weather, to 
look for loose-fitting clothing where they may be bulky 
underneath. We also put it in our pamphlet for all our 
employees so that they are continuously made aware of what they 
should be looking for.
    As far as random searches, we have started the random 
searches last week. The public seems to be very happy with it. 
They feel comfortable with what we are doing right now. NYPD is 
doing it throughout the New York City transit system, and we 
are doing it on the commuter rails. And, again, like I say, the 
public is really in favor of it at this time.
    As far as riding public transportation right now, all law 
enforcement personnel have passes to rid it. As far as 
retirees, I would bring that back to MTA for consideration.
    And the last, as far as how the federal government other 
than funds, we would definitely be looking for the technology 
that is out there to let us know what kind of technology works, 
because right now a lot of vendors and all come up and tell you 
they have the best thing since whatever, and when you look at 
it, it does not work.
    And that is one of the reasons why we do not want to just 
throw money right out there until we know what works, because 
we do not want to go back 2 years from now and have to change 
what we already did. What we are looking for is what works, 
what is off the shelf and what is maintainable.
    Mr. King. Mr. Lennon?
    Mr. Lennon. Thank you.
    As far as suicide bombers, we have had the Israelis to come 
in here with the Los Angeles County Sheriff's Department. There 
has been extensive training provided in recognition and 
reaction. We have also trained our employees on what to look 
for. So I think that program is?we started a program that looks 
really well focused with our employees and our law enforcement 
people. Again, the lessons of 7/7 and 7/21 will just reinforce 
those measures.
    Random searches, we are probably also be setting up 
probably. We have already talked about this before this hearing 
about sending a team to New York City and also Boston for their 
experiences conducting random searches with regards to both the 
RNC and the DNC.
    With regards to the use by off-duty police officers and 
retired police officers, that is something that has never come 
up in Los Angeles as an issue, and I think what we do have is a 
high use by uniform police officers and detectives using our 
transit systems, our commuter railroads and our existing bus 
and rail systems, but I will bring that back to my system 
study. And with our new mayor there, Mayor Villaraigosa, he may 
very much be interested in pursuing this with his colleagues in 
other communities.
    As far as the?I will only echo what Bill has said to my 
right and Polly Hanson We were thoroughly overwhelmed with the 
types of technologies that were made available or could be made 
available to us with a very limited amount of funding that was 
made available to us.
    We know what we want. We have conducted the assessments. We 
know exactly what we need across the board. We share, we are 
almost an incestuous industry. We talk. We talk about the 
applications, we talk about the equipment that is required. So 
we know how to spend the money, but, again, it is focused on we 
need more presence out there in terms of law enforcement. That 
is one key application, plus the technology.
    One thing I think that we really need to focus on, and it 
is just a cap-off in terms of what I have already heard this 
morning with regards to my colleagues that were here before us, 
is that if there is one area that we need to focus on and that 
is involving the public in a much more holistic role on this 
particular thing. We have a tendency to think in terms of the 
transit systems and indeed the employees and our law 
enforcement as being the ones that are responsible for 
security.
    Indeed, the persons that go, that are having the party this 
coming Saturday night think in terms of the people that are 
responsible for their security is the law enforcement. We need 
across the country, at a national level, at the local level, to 
involve the public. We almost have to have an Israeli focus on 
security. We have to involve the public beyond just the transit 
systems in making them aware and being part of the solution and 
not part of the problem. Thank you.
    Mr. King. Mr. Lennon.
    The ranking member, Mr. Pascrell, has had to go to the 
floor.
    Mr. Dicks?
    Mr. Dicks. Thank you, Mr. Chairman.
    Polly, I was very impressed with your tunnel and the fact 
that it is available for training and exercises. Is there 
another one in the country? Is that the only one?
    Chief Hanson. It is the only one, sir, and we make it 
available to anybody that wants to. We have done the Marines, 
we have done the FBI, Joint Terrorism Task Force, we have done 
local police and fire fighters.
    Mr. Dicks. Let me ask you, we were talking about the 
funding for this effort and that Transportation now has turned 
this over to Department of Homeland Security. Are you worried 
about that? Do you think you are going to get less money now 
because of this? Was the Federal Transit Administration a 
source of grants for these kind of safety projects?
    Chief Hanson. The Federal Transit Administration supplies 
support in the way of training, the type of public outreach 
campaigns. The capital money that they give transit properties 
can be used for security initiatives.
    Mr. Dicks. Can they still be used even after this new?
    Chief Hanson. Well, because it is capital money that could 
be used for an upgrade of your security cameras, which has a 
dual purpose. But the fact of the matter is that accessing 
urban area security money that goes to regions and local states 
has been very difficult for transit properties.
    Mr. Dicks. Well, how much have you gotten under this new 
program?
    Chief Hanson. Well, I am going to be real honest and go 
back to September 11, before?
    Mr. Dicks. Well, you should be.
    Chief Hanson. Okay. Before the creation of the Department 
of Homeland Security, WMATA was the recipient of $49 million, 
and that was from both Congress and the White House, and it was 
spent on things you could see and touch, intrusion alarm 
upgrades, canines, explosive detection equipment, personal 
protective equipment for our employees.
    Since the creation of DHS and ODP's Transit Grant Program, 
WMATA will or has received about $15 million, $3.7 million in 
fiscal year 2003?
    Mr. Dicks. So you got $46 million before and now $15 
million since.
    Chief Hanson. $49 million.
    Mr. Dicks. $49 million before.
    Chief Hanson. And $15 million, including the money that we 
hope to get in fiscal year 2005.
    Mr. Dicks. Yes.
    Bill, what is your situation? How much did you get before 
DHS?what did you get recently?
    Chief Morange. Well, just to give you a little rundown on 
the federal side, FEMA for our capital programs we received 
$143 million. For ODP grants for 2003, we received $27.7 
million. In 2004, from ODP, we received $14.1 million. And also 
in 2003, from ODP, for our MTA PD radio, we received $6.6 
million. In addition, from FTA, we received $188,000 to perform 
drills.
    Mr. Dicks. Paul?
    Mr. Lennon. Prior to 9/11, we had a minimum amount of 
funding, primarily was focused on grants from the FTA, which 
was well received, but it was measured in the thousands of 
dollars. Since 9/11, we received approximately $6.8 million in 
direct grants from the Office of Domestic Preparedness, 
Homeland Security monies, and we have received another like 
amount, about $6.9 million in monies that came through the 
Office of Domestic Preparedness, through the states, shared 
grants for projects for Los Angeles County and Orange County to 
do additional exercises and things like that. So it is about 
half has been through the state and half has come directly from 
the federal government.
    Mr. Dicks. Okay.
    Mr. Kozub, you mentioned safety regulations, the FAA has it 
for workers involved in aviation but they do not have it for 
other forms of transportation. Who should do that? Who should 
have the responsibility for creating these rights in the 
federal government?
    Mr. Kozub. Right now, the FTA no regulatory authority over 
transit systems as a DOT modal agency unless there was a 
regrouping there. The reality is, I believe, in my?
    Mr. Dicks. But Congress could give them the authority. Is 
that what you are suggesting?
    Mr. Kozub. I am not suggesting. I am saying that is a 
possibility. What I am suggesting from an operational 
perspective is working with many of the systems that I have 
worked with across the country there is a desire on the part of 
many of the systems to do the training. However, the local 
funding, as you brought up during the first panel, is often 
dissected between other local issues and priorities and 
priorities within the agency, such as cameras and other 
tangible capital equipment.
    So quite often, unfortunately, the need to train employees, 
which has been shown time and again as a very effective 
security measure, is often put toward the bottom of the list. 
So whether it is done through a regulatory proposition through 
the FTA or another federal agency?
    Mr. Dicks. Or just providing the money.
    Mr. Kozub. ?or simply providing the resources and the 
funding to do the job I think might be a more expeditious 
channel to go through.
    Mr. Dicks. And nobody does that at this juncture.
    Mr. Kozub. To provide funding?
    Mr. Dicks. Right.
    Mr. Kozub. Some of the agencies we have worked with have 
used some of their ODP or statewide DHS funding, but, no, there 
is no funding that I am aware of that.
    Mr. Dicks. There is no dedicated source.
    Mr. Kozub. No.
    Mr. Dicks. Thank you very much, Mr. Chairman.
    Mr. King. Thank you, Mr. Dicks.
    Congressman Reichert?
    Mr. Reichert. Thank you, Mr. Chairman.
    I agree with a lot of what the panel has said this morning 
in regard to training communication coordination and working 
with the community. Sounds like community policing to me, and I 
think that that worked rather well in King County when I was 
the sheriff in Seattle just a few months ago.
    I would like to just go back and address a couple of 
comments made by some of the panelists. And thank you all for 
your service, by the way.
    Mr. Morange, you say you hired 400 additional officers 
after September 11?200 metropolitan and 200 bridges.
    Chief Morange. Two hundred MTA police officers, and it was 
260 additional bridge and tunnel officers, or peace officers.
    Mr. Reichert. Where did that money come from?
    Chief Morange. That money came directly from the MTA.
    Mr. Reichert. Now, you talked about the grants, $143 
million, $27 million, $14.1 million, $6.5 million, $188,000. 
Any of that money go for personnel?
    Chief Morange. No. All of that money went strictly for 
equipment intrusion, fencing, lighting, and the $143 million is 
for capital construction.
    Mr. Reichert. Yes. And you had an additional 25 bomb dogs 
and handlers, right?
    Chief Morange. That was all MTA.
    Mr. Reichert. Okay. And, Chief Hanson, since September 11, 
have you hired any additional officers because of the added 
responsibilities of homeland security?
    Chief Hanson. I did apply for a COPS grant and got 10 
police positions as a result of an analysis. We wanted to 
reduce the size of our beat area so that we could have people 
on six post assignments. I have had other increases that are 
directly related to other infrastructure improvements, such as 
increased number of garage spaces at WMATA, but besides the 
COPS grant, which is only partially paid for, all those are 
paid for by the local jurisdictions who pay for WMATA.
    Mr. Reichert. Did you receive the COPS grant?
    Chief Hanson. Yes, I did, sir.
    Mr. Reichert. Is that grant still in effect today?
    Chief Hanson. Yes, sir.
    Mr. Reichert. Did you apply for a similar grant today, do 
you know? Could you?
    Chief Hanson. I do not believe so, sir.
    Mr. Reichert. Mr. Lennon, same question, have you hired 
additional police officers?
    Mr. Lennon. Yes, sir, we have. Yes, we have. We have 
increased approximately 26 police officers, sheriff's deputies 
and put them to the system in the last 3 years. We have also 
put 110 fair enforcement officers, which are not post-
certified, not peace officers, but to heighten the presence and 
focused on code enforcement, but their presence has been duly 
noted. So we have got about 135. We have increased staff to 135 
but it has all been local money.
    Mr. Reichert. Local money.
    Mr. Lennon. Yes, sir.
    Mr. Reichert. Thank you.
    Mr. Kozub, you made a point to say that from a systems 
perspective, a systems approach to this problem of protecting 
our transit across the country, that every park-and-ride, every 
outlying station and every tunnel must be protected. Does that 
part of that protection include people, personnel?
    Mr. Kozub. A big part of that protection includes the 
people and the personnel. As we have heard before, the 
customers, many times transit systems, whether a subway system, 
bus or rail, have repeat customers. The same people get on the 
same train or the same bus every morning. They are some of the 
best at observing and knowing if someone is acting a little 
suspiciously or if there is a package or some other presence 
there that is out of the norm.
    The employees that work those regular routes and facilities 
are also very cognizant of what is normal and what is not 
normal. It is basic training and communication to these 
audiences that need to motivate them, to give them the 
confidence to report things, and it is also the cultural and 
system process within an agency itself that needs to have the 
follow up. You need to have the follow-up law enforcement 
within an agency that can follow up on these leads and do the 
traditional police work that needs to be done.
    Mr. Dicks. I guess the final point I would like to make, 
and you have actually made it for me, as the sheriff in King 
County in my previous life, I struggled with the same problems 
that you are struggling with right now. We had responsibility, 
and have today, for the Metro system.
    As we move forward in time, in the future, the difficulty 
in putting people and personnel in places that we know they are 
going to be needed to protect our transit systems across this 
country is going to become more and more difficult. The bottom 
line question is, how are we going to pay for that?
    You do not have to answer that, I will just leave it like 
that. My time has expired.
    Thank you, Mr. Chairman.
    Mr. King. Thank you, Congressman Reichert.
    Mr. Etheridge?
    Mr. Etheridge. Thank you, Mr. Chairman. Let me thank you 
for being with us this morning in your testimony.
    We talked a lot about communications, understanding, 
listening. Let me ask each of you very quickly, Will, about 
this whole issue of interoperability. Obviously, first thing we 
want to do is prevent, but beyond that we ought to be able to 
communicate with first responders.
    Share withy us, if you would, how interoperability between 
you folks and first responders, is that a problem? Have you 
solved it? Do you need help? Where are we in that process, 
because I think it is a critical piece, and it seems to pop up 
every time we have a major problem.
    Would you talk to us about that for a moment?
    Chief Hanson. Do you want me to go first, sir?
    Mr. Etheridge. Please.
    Chief Hanson. Okay. WMATA and the metropolitan region, 
through COG, the Council of Governments here, has done a number 
of things. They have used Urban Area Security initiative ODP 
money to buy a cache of radios that can be accessed by both 
fleece and fire. There are SOPs that support that. That system 
does allow for interoperability at an incident, and they have 
been used several times for special events by both fleece and 
fire in this region.
    This region was fortunate to participate in some federally 
supported projects. Originally, the project was called, 
``Agile,'' and now it is called, ``Merge,'' so it does allow 
some interoperability with police departments in this region.
    Recently, fire fighters received money from Urban Area 
Security Initiative money to improve their communication in the 
Metro by increasing the lines that are necessary for fire 
fighters or for police departments to go down in our system and 
still have communication, which I thin is important to note. 
Our environments are very different from being up on the 
street.
    So while there might be interoperability for police and 
fire fighters above the street, the transit environment because 
of the concrete and underground there is a different dynamic 
but there have been efforts, there is technical assistance 
available from ODP, and I would encourage more money in areas 
like that, not just to make the recommendations but once the 
recommendations are made by ODP for the funding to be there, 
then to help regions or properties or transit police and local 
fire fighters to be able to obtain those recommendations.
    Mr. Etheridge. So you are not saying the communication is 
adequate currently.
    Chief Hanson. I think that more can be done. I think in 
this particular region things have been done and things have 
been done with ODP Urban Area Security money.
    Mr. Etheridge. Mr. Morange?
    Chief Morange. As you well know, in the MTA, in 1998, they 
merged the Long Island Railroad with the Metro North Police, so 
a lot of their communication was done via locomotive and 
conductors' frequencies. Now, presently, we are part of the 
NYSWN Program, which is the New York State Wireless System.
    We are a pilot program, and we are looking all along the 
right-of-ways of improving our communication, and this system 
that once it is placed in was obtaining the frequencies and 
all, because the frequencies were not available. And now under 
the NYSWN Program, they are going to be made available to us. 
We are part of the pilot program. We have $50 million of our 
money invested right now. And I feel that this is really going 
to be a positive for the entire transportation industry and the 
MTA.
    As far as New York City, there are fiber optic cables and 
all and different systems that are in the tunnels so that they 
could communicate above grounds. They continually look to see 
where they can improve the system. I know the fire department 
uses it now. They are working on it along with the New York 
City Police Department to improve the communications there. 
They do look at the dead spots and they work on it from there.
    Mr. Etheridge. Mr. Lennon?
    Mr. Lennon. Communications have always been a major 
priority for the citizens of Los Angeles and our emergency 
respond team has made sure that since we have built the Red 
Line tunnel, we have made sure that communications for both the 
Sheriff's Department and for the fire departments as well as 
for the LAPD has been of paramount importance and they can 
communicate below ground as well above ground.
    Interoperability, I would characterize probably right now 
as being adequate for the situation. It can be enhanced, and I 
believe it is a priority, both for the fire and the police 
departments to do that.
    Again, our exercises that we have conducted, multiagency 
exercises, have reinforced the need for always continually 
enhancing our communications.
    Mr. Kozub. On a national level, communications is basically 
a two-part problem. Communications from technology, as the 
chief just recognized, yes, there needs to be more emphasis 
placed on getting the equipment into the right hands so it can 
be used at the right time.
    However, as Chief Morange pointed out, the successes that 
have been seen in past incidents have largely been due to 
interrelationships, not just technological capabilities but the 
preexisting relationships between the policy makers, decision 
makers that need to manage an incident, both from the transit 
side and the emergency services side.
    So you need to look at both components, getting the right 
radios that can talk to each other, but you need to have 
training and drills and tabletops that can bring these people 
together hopefully before something would happen.
    Mr. Etheridge. So you develop relationships.
    Mr. Kozub. Exactly.
    Mr. Etheridge. Thank you. My time has expired.
    Thank you, Mr. Chairman.
    Mr. King. The gentlelady from the District of Columbia?
    Ms. Norton. Thank you very much, Mr. Chairman. I very much 
appreciate your calling this hearing, because I think the 
American people want to see whether we are paying any attention 
to London and its possible effects here. So I think you have 
done a public service and particularly in hearing from this 
panel, which is straight from the ground where it counts.
    The Washington Metropolitan Transit Authority, of course, 
here may be ahead of some others, perhaps not New York, I am 
not sure, but ahead of some other transportation systems, 
although I must tell you, to hear you testify about $15 million 
since 9/11 was not very comforting, Chief Hanson.
    Let me indicate that here there is an additional 
responsibility. There is the federal responsibility for 200,000 
federal employees, that the federal government actually 
subsidizes to get them on the Metro every day because otherwise 
the roads would be so choked, you could not even get to the 
Capitol or to Washington. Now if of course something to the 
system which the federal government has encouraged to use, 
particularly given the large number of federal employees, we 
would be in very hot water.
    I really have two questions. One is to try to straighten 
out this dedicated versus other more general funds, and the 
other has to do with thinking outside the box all together 
about public transit security.
    Now, there was earlier testimony that everybody understands 
we are talking basically in dedicated funding about $250 
million. Then when you ask, okay, what kinds of things would 
dedicated funding be used for, training would be one, overtime, 
I understand, is another. If you get to the word, ``capital 
improvement,'' then you really stop me. That is such a huge 
expense that it seems to me once you decide to use money for 
that, you do not get to the other things.
    Which brings me to the $8.6 billion that we are told that 
you all would just go get it, it is there, and use for this 
purpose. Testimony earlier, $25 million from the, I will call 
it, large emergency responder, I will pool those two sets of 
grants, in 2004 used for public transportation security, $5 
million, I understand, in 2005.
    I am trying to find out what difference dedicated funding 
means and whether there is a reluctance given the concern about 
first responder funding to simply take money from first 
responder funding or whether it would matter to local 
jurisdictions to have a pot of money that they knew would be 
dedicated to that, they knew up-front and would be used for 
that. We had a major debate on interoperability here on the 
authorization proposal.
    In New York, for example, continue to scream about first 
responder money. What difference does dedicated funding make or 
does it not make a difference? We have had dedicated funding 
for air security, we have had it for port security. Does it 
make any difference or do you think that the pot of money from 
the other set of grants could be used by major transportation 
systems just as well?
    Could I hear from each of you on that?
    Chief Hanson. I think dedicated funding is appropriate and 
necessary. I think that transit properties throughout the 
United States have had problems accessing regional, state, 
local, Urban Area Security Initiative money because there are 
competing priorities. It is a political process.
    I think prior to London people do not get it when it comes 
to transit. I think people now understand their local 
responsibilities in relation to securing infrastructure. You 
certainly get it with your secure transit and other initiatives 
to improve the infrastructure security of vital corridors in 
this country. However, locally, I am not sure folks are really 
engaged. We are competing with other priorities that folks have 
locally.
    I do think that there needs to be some tie-in, and the ODP 
threat risk vulnerability assessments are appropriate. You go 
get one, you have a list of priorities that have been outlined 
by the folks writing the check, and when you get dedicated 
funding that comes right to the transit property, you go down 
that list. And there are ways to ensure that it is being 
appropriately spent.
    Ms. Norton. Thank you.
    Mr. Morange?
    Chief Morange. Well, in New York, we continue to look for 
all types of funding and dedicated funding. As far as any 
grants, sometimes we would like that there are certain 
parameters that are put on how we can spend that money, and we 
would like to show that maybe there is another way that we can 
spend it and should be spending it.
    I also believe that it is very important for the first 
responders, because that is one of our major weapons that we 
have against terrorism in our transit system.
    So, again, when it comes to any type of funding, we 
continually go out to look for funding, but we would like some 
kind of way that maybe instead of having to spend it exactly 
the way, to show that maybe there is a way that it could be 
spent in another area where it would be just as good.
    Ms. Norton. For?
    Chief Morange. For transportation, yes.
    Ms. Norton. For transportation funding.
    Mr. Lennon?
    Mr. Lennon. Yes. Thank you. There is no question about it, 
I agree with the people to my immediate right. We really do 
need a dedicated funding stream for transit. The way the money 
is being allocated to the states sets up circumstances of 
competing priorities here.
    We are talking about first responder communities here that 
really do need the money, there is no question about it. But 
when you go west of the Mississippi, in the case of California 
and specifically Los Angeles, we have a very, very vocal first 
responder community, very, very Professional, et cetera, but 
the focus on public transportation isn't there in terms of the 
funding stream, albeit the people that use it, we have 1.3 
million riders every day using our public transit.
    But we will find, when the smoke clears, that the majority 
of the monies do not get to the transit system itself. It goes 
to the first responder communities. That is why it is 
imperative for us to have a dedicated funding stream to the 
transit systems to ensure that they get what they need.
    Ms. Norton. Mr. Kozub?
    Mr. Kozub. Thank you. As I mentioned before, dedicated 
funding is a very vital component to this. It is emergency 
responder training, and I have been in the emergency services 
and the fire service for 25 years myself. It is a very vital 
component, as I have identified in the past.
    But one thing that cannot be ignored is training, not only 
initial training but continuing training for the frontline 
employees is very vital to that whole process. When the 
emergency responders get there, it is what has been done by 
those employees in the first few seconds and few minutes that 
is going to determine whether those fire and police units are 
on the scene for 2 hours or 2 days.
    So we cannot look at the emergency response as just those 
showing up in uniform on dedicated vehicles. Emergency response 
happens from the minute and the second an incident happens and 
goes from there.
    Ms. Norton. Mr. Chairman, if I might ask one more question. 
It is a really thinking out of the box question. People rightly 
say, because it is the only analogy they can point to, how do 
you spend the kind of money that you spend on air travel and?we 
do not have that kind of money. I would be the first to agree 
with them.
    The chairman asked about random searches. In a real sense, 
I think that describes the pitiful state of where we are on 
mass transit funding. It is not that you do not know what to 
do. You are doing all that you have at your disposal now.
    But may I ask you whether you think at the federal level we 
should be encouraging our great entrepreneurial inventive 
private sector to help us think through an entirely new 
approach for mass transit security, where you would put a 
problem to them?limited resources, 19 billion passenger rides 
every year'some of the people you would be talking to would be 
technology people, some of the people you would be talking to 
would simply be analytical people.
    So the two-part question would be, help us think through 
technology that would be within our means that could help us 
protect mass transit where people have to go and come quickly.
    And the other part of the question would be simply 
analytical: Even without the technology, the people who think 
about security, what are the best ways to in fact reinvent 
security on mass transit?
    Do you think that that kind of proposition put out to the 
public, to security experts on the one hand, to people with 
technology on the other hand, would be the kind of federal 
leadership that would help you to solve the new problems that 
London and Madrid now present to you, essentially, as it is now 
to solve for yourselves?
    Chief Hanson. Couple of things that I am thinking outside 
of the box. Science and technology and DHS should be doing 
that, and they should be leveraging those kind of opportunities 
and partnerships. Our PROTECT Program was taking military 
technology and seeing if that could work in a transit property, 
and it was very successful.
    I agree with my colleague over here, there needs to be a 
list of standards and they cannot come out after you have 
bought all the equipment. It would help if there was a list of 
standards, and transit chiefs and transit properties have been 
asking for that for some time. There are a lot of snake oil 
salesmen. They see we have the money. They are calling every 
day wanting to sell us stuff. Somebody needs to do the 
evaluations to tell us what works and what does not.
    And on a very low tech dimension, I would suggest that 
September is National Preparedness Month. Let's get serious 
about it. Our kids do fire drills in schools and why don't our 
businesses and the folks who use transit get serious about 
preparedness during that month and try another alternative way 
to get to work, really seriously look at planning at home and 
sheltering in place and the other kind of activities that if we 
are really serious about preparedness, we should be engaging in 
as a nation and a country.
    I want to go back to Mr. Kozub whose training is absolutely 
fabulous. This video is dynamic. We just put it on our Intranet 
so all employees can access it. There are challenges in 
training operational employees. The emphasis has been on cops 
and fire fighters. Our operational employees are out there 
every day, and there is backfill overtime money for cops and 
fire fighters. There needs to be for our operational employees. 
It is very hard to take them out of the system?bus operators, 
train operators, custodians?to do the kind of training that Mr. 
Kozub has designed and is absolutely fabulous.
    So some of those are things that I think would really help 
us get where we need to go.
    Ms. Norton. Mr. Morange?
    Mr. King. If I could just interrupt, Chief Morange. To 
follow up on what Chief Hanson said about using military-type 
equipment. You also had some experience with that and it did 
not work out, as I recall.
    Chief Morange. Well, presently, we have the PROTECT system 
in Grand Central Terminal and we have been trying that out. And 
we also are looking to take it over from DHS.
    Mr. King. Wasn't there a system proposed to you by the Army 
that did not work in New York?
    Chief Morange. Well, the Army was something different. When 
I first came over, the Army was going to do some of the 
technology and all, but according to contracts and all, it just 
could not be done. But they talked about Lockheed Martin and 
other--Grumman and all that were involved in this type of 
technology, which we are looking into today. But we do, through 
DHS, use the PROTECT system, and we are also involved with New 
York City with the Biowatch Program.
    But getting into technology and the young minds, this is 
the greatest country in the world, and there are a lot of young 
minds that are out there, and I think that that is something 
that we should all be looking to tap and see what is out there, 
what we can do, and it should come through, one agency where 
they are just looking at that technology for us.
    As far as involving everyone, today, security is everyone's 
business, and it is evident by the way you go into any of these 
transportation systems today and you see something, say 
something, the eyes and ear programs, how they all work, how a 
lot of people are making a lot more calls, and it is our 
responsibility that we respond to all of these calls and do 
what is proper.
    I mean, our employees, we have got 65,000 employees that we 
constantly tell them how important they are, ``It does not 
matter what your assignment is in the system, you are very 
important to us.'' And I think what you say about as far as 
involving everyone, involving the business community and all, 
that is a great idea in addition to having all this technology 
looked at and what is out there.
    Ms. Norton. Yes, Mr. Lennon.
    Mr. Lennon. I think my colleagues have really pretty much 
summarized it very, very adequately, but I think you raised the 
right question, and that was the question that we have been 
talking about for 2 years. The snake oil salespeople that Polly 
has talked about has been an anathema to us in the industry.
    When you look at the technology that is in play right here 
at National Airport, it is the same technology that we used 
back in the seventies, shortly after I got out of the Marines. 
You came through after the federal sky marshals, the 
hijackings. It has been upgraded somewhat but we are still 
doing it, we are still queuing up to wait in line, to go 
through metal detectors. We are adding chemical detectors, we 
are talking about explosive detectors too. If we challenge the 
convention wisdom out there, as Bill has indicated, you get 
people focused on where we need to go with this.
    Using transit as probably the ultimate beneficiary, we will 
come up with a solution within a year to 2 years. We have never 
challenged the public.
    The other part, as I have already indicated, we need to 
really engage the public. We are doing everything that we can 
right now to train our employees. We are heightening public 
awareness at the local level. We need to engage the national 
public with a national mindset of what they need to be doing. 
We need to be a seamless focus on counting terrorism right now.
    Ms. Norton. Yes, Mr. Kozub?
    Mr. Kozub. I am not going to repeat anything that has been 
said. I will just throw in one caveat. Technology is a good 
step. There needs to be more research. However, let's not 
forget that the PROTECT system in WMATA requires one of Chief 
Hanson's officers within a control room that if it is set off 
to respond appropriately. A camera is a very good tool that can 
view a variety of areas, but you need a human being sitting 
there, viewing the output of that camera and assessing and 
analyzing that information and making snap decisions to respond 
to it appropriately.
    So while we need to look at exploring more technology, the 
research of it, the application of it, we also need to look at 
the human factor of all the technology and what is capable of 
one person or a group of people and a response and analytical 
perspective on a daily basis.
    Ms. Norton. Yes. Finally, I am not even suggesting that 
technology is the answer, because I am not sure. I am 
suggesting that I would want to find out. I would want to ask 
these folks who can now tell us about how, for example, to 
use?that did not take much. It did not take us very long to 
find out that if you had a cell phone, you can now use a cell 
phone to set off a bomb throughout the New York subway or the 
Metro system, and that is pretty low tech. They can do that. It 
seems to me the same kind of technology might be able to help 
us stop that.
    But quite apart from that, I am also concerned?
    Mr. King. Can you wrap it up, because we have to go to?
    Ms. Norton. Yes. I am also concerned that there are other 
ways to approach mass transit. Ways that are very different 
from approaching air travel security need to be thought 
through, whether or not they involve technology.
    Thank you very much.
    Mr. King. Thank the gentlelady.
    And the ranking member of the full committee, gentleman 
from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman, and I, 
too, join the other members in saying that this is quite an 
interesting panel.
    Couple questions. We heard the term, ``no standards,'' 
technology not being what it is, can the three transit 
authorities tell me whether or not you have ever received a 
directive from DHS about technology in terms of what is 
applicable for transit security?
    Chief Hanson. There are a variety of particulars that come 
out. We recently participated in something that ODP facilitated 
for us where trash cans are being tested. Many of us, the TSA 
requirement is to have bomb-containment cans or clear plastic, 
so we are very interested in ensuring that the products that we 
purchase with federal dollars do what they say they are going 
to do.
    There are other information bulletins that they put out. 
What they really have done, though, is to look at what we are 
doing and recommend things that they know. They do in DHS have 
science and technology as the directorate that I think could do 
more to advance. The recommendations are testing of some of the 
things that were discussed today and new technologies that are 
out there.
    Chief Morange. We have met with DHS. We have talked about 
standards that other agencies are using amongst ourselves to 
find out what are the best practices that are out there. They 
also have been involved with us with doing certain pilot 
programs.
    So it is a continuous effort of looking for what is out 
there, and we do get help from all agencies involved. I think 
it is not so much when we look at as far as receiving 
assistance and all. I think it is so much that all of us 
getting together, and I believe that is the most important 
part. We were down at the DHS. We did talk about explosive-
detecting dogs, we talked about the trash containers. A lot of 
us brought up the fact that we did not feel that these trash 
containers were tested. We asked that they would be looked at. 
So we also bring back certain thing that we would like to see 
happen.
    Mr. Thompson. Mr. Lennon.
    Mr. Lennon. Yes, sir. The trash containers are the perfect 
example, I think, and probably the most prevalent example of 
what was recommended to us by TSA. They have a value, but what 
has to be conditioned in applying that value is where you place 
those trash barrels. Those barrels direct the explosion, a 
vertical plane, depending on the height of the ceiling, the 
fact that you are in a subway may or may not be the best place 
to put those barrels. We got the barrels through grant monies, 
I might add, and we are apply to our outdoor rail station 
because of what we have found in conducting our own tests.
    Mr. Thompson. Well, I am glad you talked about that but one 
other question is, what if I told you that as of today, we have 
no transit security plan that has been presented to Congress, 
even though we require that a transit security be produced by 
April 2 of this year. And so whatever we are doing, it is based 
on what somebody thinks they should do. Because the Department 
has failed to meet the congressional mandate on producing a 
transit security plan for this country.
    Chief Hanson. What I would say is that the transit 
properties have been required to put forward plans and are 
required to present them to the FTA during a triennial review 
or any other audit that is conducted because FTA provides 
capital funds. What I would also say is that transit properties 
were required to submit plans to ODP in order to qualify for 
the next round of urban area security or transit grant monies. 
So we have certainly developed plans and put them together and 
submitted them to the appropriate folks. I am not at liberty to 
discuss what happened after that, but we have done our part.
    Mr. Thompson. And maybe I need to put the tail on the 
question to say, have you been consulted by the Department as 
to what a good transit security plan would include?
    Chief Hanson. FTA actually brought a number of the people 
that are at this table together to discuss that, and many of us 
were a part of making recommendations as to what should be in 
those plans and then guidance was published by FTA outlining 
what things should be in the plan.
    Mr. Thompson. But you have not seen the plan.
    Chief Hanson. Well, I have put together my plan, and I have 
seen their recommendations for the plan. But many of us at this 
table were a part of suggesting what would be appropriate to be 
in the plan.
    Mr. Thompson. Mr. Morange?
    Chief Morange. I think it is like Chief Hanson said. We 
have submitted our plans, we have talked?and I really believe 
that putting together a transit plan is not as easy as it may 
seem because of the different variables that are in the 
systems. An also if you take the New York City transit system, 
I mean, it is 100 years old.
    So, I mean, basic plans, yes, you could put in, but, again, 
you have to continually bring all of the transit agencies 
together so that they could share their best practices. And it 
is a continuous changing thing.
    Mr. Thompson. Well, Mr. Lennon, I will put it to you, say, 
if you indulge me. I am not talking about your individual 
department plans, which obviously you have done a very credible 
job. What I am concerned about is the fact that we do not have 
a national transit security plan for America.
    All of you have done your individual plans, but you run 
major operations yourself. And I am trying to get whether or 
not you have either been involved in helping DHS to do this 
soon to be produced transit security plan. Do you know of one 
in the works. Would you like to be included in consultation of 
such a plan?
    I know what you do individually, but we are charged with 
doing it for all of America and we are yet to have it.
    Mr. Lennon. Let me respond to that. We have been contacted 
by TSA when it first came into existence for copies about my 
security plan. I think they tapped into all the other major 
real transit systems and multimodal transit systems for copies 
of their plans. And that has been occurring for the past 2 
years. We have shared our plan with the representatives from 
TSA when they touched down.
    We know they have been looking at our plan. The feedback 
that they gave us, as Chief Hanson has pointed out, that they 
noted the uniqueness. So I know they have seen other plans. 
They have noted the uniqueness of our system but noted the 
commonalities in our plan that are similar to the chief here 
and the chief further on. And that is because of the FTA's role 
in developing standards.
    So there are standards for a system security plan despite 
the anomalies and the differences amongst all of us. We all 
have plans in place. We drill to our plans.
    If you tell me that would I like additional input into a 
national plan, most certainly, we would all welcome that, I 
think if nothing else, because I would like to see my plan as 
the role model, and so would Chief Hanson and so would Chief 
Morange. I think the communication is in place at our levels.
    We focus less on the uniqueness of my system versus Chief 
Hanson's or Chief Morange's. What we do is we come together 
multiple times during the year, our staff does too, and we do 
it as a national level through the APTA conferences and through 
round tables that the FTA hosts. And we share our best 
practices as well as our plans.
    I think we are at a very, very standard preparatory for 
response, too, at this point in time.
    Mr. Thompson. Not to cut you off, but I think we just have 
been fortunate that we have had good people running transit 
authorities in this country..
    Mr. Lennon. I agree.
    Mr. Thompson. But our charge that we gave the Department is 
to come up with a plan for the country, and they have not done 
that.
    Mr. Chairman, I think maybe part of this hearing is that we 
need to, since we had the secretary before us yesterday, remind 
him that the committee and Congress, for that matter is still 
waiting on this transit security plan for Americans, noting the 
fact that within each individual transit authority they already 
have their own, but I think we have to have some national 
standards.
    Mr. King. There is no doubt the plan is overdue. There is 
also no doubt that there is a strong bipartisan consensus on 
this committee that the plan should be put together as quickly 
as possible. I will certainly discuss it with Chairman Cox, and 
if Mr. Pascrell wants to discuss it, we can certainly submit a 
joint statement to the secretary to reemphasize the importance 
that we attach to that plan.
    Mr. Thompson. Thank you.
    Mr. King. I thank the ranking member.
    I want to thank all the witnesses for their testimony. In 
addition to everything else, you have shown how complex the 
issue is, you have shown how wide-ranging it is. In New York, I 
am somewhat reassured that we have gotten over $190 million for 
the MTA in recent years, but I also realize the large job that 
is still out there. And if it is true in New York, it is true 
in Washington, it is true in Los Angeles, it is true everywhere 
in the country.
    So this is an issue that requires, as the ranking member 
said, for Homeland Security to be directly involved, and 
thankfully we do have people such as yourselves at the local 
level.
    I want to thank all of you for your testimony today, and, 
more importantly, for the job you do day in and day out, 
because, as Eleanor Holmes Norton said, you really are the 
troops that are on the front lines. We are in a war, you are on 
the front lines, you are doing a great job. We want to thank 
you for it.
    And with that, members of the committee may have some 
additional questions for the witnesses, and we would ask you to 
respond to them if you would in writing. We will keep the 
record open for 10 days. And also I ask unanimous consent that 
a letter from the American Public Transportation Association be 
admitted into the record. Without objection, so ordered.
    The subcommittee stands adjourned.
    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
